<html>
<title> - STATUS OF THE AFFORDABLE CARE ACT IMPLEMENTATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


            STATUS OF THE AFFORDABLE CARE ACT IMPLEMENTATION

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON WAYS AND MEANS

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2013

                               __________

                          Serial No. 113-FC13

                               __________

         Printed for the use of the Committee on Ways and Means



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               U.S. GOVERNMENT PUBLISHING OFFICE
21-119                                WASHINGTON : 2016                               



________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93f4e3fcd3f0e6e0e7fbf6ffe3bdf0fcfebd">[email&#160;protected]</a>  



                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JIM RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of October 29, 2013 announcing the hearing..............     2

                                WITNESS

Ms. Marilyn Tavenner, Administrator, Centers for Medicare & 
  Medicaid Services, U.S. Department of Health and Human 
  Services, Washington, DC.......................................     6

 
            STATUS OF THE AFFORDABLE CARE ACT IMPLEMENTATION

                              ----------                              


                       TUESDAY, OCTOBER 29, 2013

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
1100, Longworth House Office Building, the Honorable Dave Camp 
[Chairman of the Committee] presiding.
    [The advisory of the hearing follows:]

         HEARING ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS 
                 Chairman Camp 
                 
 Announces Hearing on the Status of the Affordable Care Act Implementation

1100 Longworth House Office Building at 10:00 AM

Washington, October 22, 2013

    House Committee on Ways and Means Chairman Dave Camp (R-MI) today 
announced that the Committee will hold a hearing on the problems 
Americans are experiencing with the Obama Administration's launch of 
the Affordable Care Act (ACA). The Committee will hear testimony from 
Marilyn Tavenner, Administrator of the Centers for Medicare & Medicaid 
Services (CMS) at the U.S. Department of Health and Human Services 
(HHS). CMS is the Federal agency that oversees the operation of the 
Exchanges through the Center for Consumer Information and Insurance 
Oversight (CCIIO). The hearing will take place on Tuesday, October 29, 
2013, in 1100 Longworth House Office Building, beginning at 10:00 A.M.
      
    In view of the limited time available to hear from the witnesses, 
oral testimony at this hearing will be from the invited witness only. 
However, any individual or organization not scheduled for an appearance 
may submit a written statement for consideration by the Committee and 
for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    President Obama has acknowledged that the October 1 launch of the 
health care Exchanges was unacceptable. Americans have been unable to 
create accounts, and individuals continue to receive repeated error 
messages and inaccurate information from www.healthcare.gov. According 
to Consumer Reports, only 1 in 35 individuals were able to create an 
account on www.healthcare.gov. Recently, the Administration announced a 
``tech surge'' of the ``best and the brightest'' to fix the problems, 
but experts have warned the ``online system required such extensive 
repairs that it might not operate smoothly until after the December 15 
deadline for people to sign up for coverage starting in January.''
    The Ways and Means Committee has conducted extensive oversight of 
the implementation of the Affordable Care Act to ensure that the 
Administration is implementing the law as promised. Despite significant 
reports about the difficulties they were encountering in building the 
Exchanges, Administration witnesses dismissed such reports. Instead, 
they repeatedly assured the Committee that warnings from nonpartisan 
independent auditors were wrong, including the Government 
Accountability Office, which reported the Administration was behind 
schedule and at risk of experiencing enrollment problems.
    The significant and ongoing problems with the launch of the 
Exchanges further exacerbates the challenges facing American families. 
Individuals are unable to create accounts, navigate the website and 
receive accurate information about cost and choices, while insurers are 
receiving inaccurate enrollment data. Despite these ongoing 
malfunctions, millions of Americans will be forced to deal with these 
challenges as they attempt to either comply with the individual mandate 
to buy coverage or pay a tax.
    This hearing will examine the status of efforts by CMS, HHS and the 
Obama Administration to identify the problems plaguing the launch of 
the Exchanges and the specific plans to fix the design flaws. The 
hearing will seek answers to why the Exchanges are not working, whether 
the Exchanges will be ready to fulfill all of their required functions 
and what steps are being taken to ensure that CMS and HHS will be able 
to accurately verify subsidy eligibility--prior to the distribution of 
premium tax credits and cost sharing subsidies.
    In announcing the hearing, Chairman Camp stated, ``After spending 
over $600 million, the American people want answers to some very basic 
questions about the launch of ObamaCare. Why doesn't the website work? 
Why were the American people told everything would be ready, when it 
was clear that was not the case? How deep are the problems and how long 
will it take to get those problems fixed? And most importantly, if 
people can't navigate such a dysfunctional and overly complex system, 
is it fair for the IRS to impose tax penalties?''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on the status of the Obama Administration's 
implementation of the Affordable Care Act.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, https://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Tuesday, November 12, 2013. Finally, please 
note that due to the change in House mail policy, the U.S. Capitol 
Police will refuse sealed-package deliveries to all House Office 
Buildings. For questions, or if you encounter technical problems, 
please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman CAMP. This hearing will come to order.
    Good morning. I would like to welcome Marilyn Tavenner, the 
Administrator at the Centers for Medicare and Medicaid Services 
at the U.S. Department of Health.
    Welcome to the committee today. I look forward to your 
testimony, and I look forward to the hearing to really get an 
honest, straightforward assessment of the status of the health 
care law.
    Six months ago, Health and Human Services Secretary 
Sebelius told this committee a dozen times that the 
administration will be ready on October 1. We now know the 
administration was not ready, and just last week Secretary 
Sebelius suggested they could have used 5 years to get the 
exchanges up and running.
    Despite having more than 3 years to get the system up and 
running, officials at the Centers for Medicare and Medicaid 
Services who are charged with implementing the exchanges added, 
and I quote, ``Due to a compressed time frame, the system 
wasn't tested enough.'' And, frankly, 3 years should have been 
enough. And had the administration provided more forthcoming 
answers and shared in a transparent manner the reality of the 
challenges it was encountering in the implementation process, I 
suspect many of these glitches could have been avoided.
    While the Web site can eventually be fixed, the widespread 
problems with Obamacare cannot. Almost daily we hear reports of 
Obamacare increasing costs, harming job creation, and forcing 
Americans off their current plan. These problems can't be fixed 
through a technical surge or tech surge, and they are not just 
a glitch in someone's health care coverage or job.
    Not a week goes by that I don't hear examples from the 
people I represent in Michigan and job creators about the 
increasing costs and how Obamacare is making it harder for 
businesses to invest, grow, and hire people. Just last month, 
Meridian Public Schools in my district announced that it would 
be cutting the schedules of hourly workers to fewer than 30 
hours per week as a result of Obamacare. And this month, the 
Detroit Free Press reported that at least 146,000 Michiganders 
have received cancellation notices for their current health 
plan due to Obamacare. In fact, based on what little 
information the administration has disclosed, it turns out that 
more people have received cancellation notices for their health 
care plans this month than have enrolled in the exchanges.
    The widespread acknowledgement that the health care 
exchanges were not tested months in advance as promised is 
cause for concern, but the concerns don't stop there. The 
Treasury Inspector General warned in August that it was not 
confident about the IRS' ability to protect confidential 
taxpayer information or to prevent fraud, and neither am I.
    On top of that, the exchange does not give individuals the 
information they need to make an informed health care decision. 
When going through the options, how are Americans able to see 
if they are even eligible to be in the exchange, if their 
current doctor is in the plan, what the real costs of their 
premiums will be, and how much their copay will be?
    No amount of Web site fixes can make right the President's 
broken promises that health care costs will be lowered by 
$2,500 or that Americans will be able to keep the plan they 
have and like. Those are worthy goals, reducing costs and 
maintaining coverage, and they are ones that we should all work 
together to accomplish.
    I would be remiss if I didn't remind my colleagues that the 
alternative put forward by Republicans at the time was the only 
plan scored by the nonpartisan Congressional Budget Office as 
actually reducing premiums. Democrats chose to go down another 
path, and that is where it has led us. Instead of plowing 
forward with this unworkable law, the administration should at 
a minimum seriously consider delaying the law for families and 
individuals, just as it has done for big business. If they fail 
to do so, I fear we could see a fundamental breakdown of the 
insurance market, where premiums will skyrocket, pricing 
millions of Americans out of health care, yet still be forced 
to pay the individual mandate tax.
    Administrator Tavenner, we cannot solve a problem until we 
realize the full extent of the problem. Your answers today and 
in the future will be critical to this committee's oversight of 
the health care law and, more importantly, to our work to make 
sure Americans have access to affordable health care.
    Before I recognize Ranking Member Levin for the purpose of 
an opening statement, I ask unanimous consent that all members' 
written statements be included in the record. And without 
objection, so ordered.
    Chairman CAMP. I now recognize Ranking Member Levin for his 
opening statement.
    Mr. LEVIN. Thank you, Mr. Chairman and colleagues.
    And, Marilyn Tavenner, a warm welcome.
    We start this hearing facing a basic reality: Democrats 
want to make the Affordable Care Act work, congressional 
Republicans don't. That reality has been reflected in 40-plus 
efforts by Republicans to repeal, dismantle, or defund the 
Affordable Care Act. That reality was reflected in their zeal 
shutting down the government and jeopardizing the full faith 
and credit of our Nation, damaging our Nation's global standing 
and leading to enduring harm, costing our economy $24 billion, 
tens of thousands of jobs, a dramatic drop in consumer 
confidence.
    Now, having still failed to derail the ACA, the Republican 
focus of attack has shifted. The new front relates to 
HealthCare.gov. There very clearly are challenges to 
implementing new, pioneering access to health care. Consider 
these headlines. You can see them there. For example, 
``Problems Plague Rollout,'' NPR reported. ``Plagued by Delays 
and Confusion Over Coverage,'' said the San Francisco 
Chronicle.
    These headlines are from 2005 as Medicare Part D was 
launched. That year, in dramatic contrast to the Republican 
conduct to date, Democrats who had opposed that law worked to 
make it a success, working with Republicans on a bipartisan 
basis, Republicans who had passed that law to address many 
problems, and most importantly, we worked with our constituents 
to ensure they could sign up.
    The reality is that the Affordable Care Act, which 
Republicans are failing to work on with Democrats, is working 
quite effectively in States running the marketplaces. You can 
see from that slide.
    [Slide]
    Mr. LEVIN. In Kentucky, more than 26,000 people have 
enrolled for coverage. In New York, more than 37,000 have 
signed up. And in Washington State, more than 35,000 people had 
enrolled as of a week ago. And the irony is that Republicans 
have erected hurdles to States throughout the Nation taking 
responsibility for implementing the law.
    The Web site for the Federal insurance marketplace must be 
fixed, and it is being fixed. This gentleman from Salt Lake 
City, Mr. Sherburne, is among those who have enrolled. A self-
employed father of three, he has been uninsured for years, 
paying cash for doctor visits and the occasional trip to the 
emergency room, he told his local newspaper. Once he got into 
the marketplace Web site, he compared 38 plans and got coverage 
for his family for $123 a month. And I quote, ``Once they get 
the bugs worked out, it will work well and bring peace of mind 
to a lot of people,'' end of quotes. And he added, ``I am 
thrilled to have coverage, period.''
    Prior to this year, what awaited Mr. Sherburne and tens of 
millions of other Americans who don't get health insurance 
through their employer, but rather had to sign up on their own, 
was a maze of invasive personal medical history questions 
within applications that seemed to never end. When individuals 
did get through the process, too often a preexisting condition, 
no matter how minor, was used to deny coverage, to charge 
exorbitantly high premiums, or to exclude needed benefits. 
Thankfully, these days are behind us. They are behind us.
    This hearing provides a chance for every Member of this 
committee to proceed in a constructive, not a destructive 
manner, and for the Administrator to lay out how the Web site 
is being fixed, as it must be, and for everyone on this 
committee to join in this effort to make available, not to 
prevent access to quality, affordable coverage for every 
American. I yield back.
    Chairman CAMP. Thank you.
    Today we will hear from the Administrator for the Centers 
for Medicare and Medicaid Services at the U.S. Department of 
Health, Marilyn Tavenner.
    Your written statement will be made part of the record and 
members have received it, but you will be recognized for your 
oral testimony for 5 minutes. Welcome.

 STATEMENT OF MS. MARILYN TAVENNER, ADMINISTRATOR, CENTERS FOR 
  MEDICARE & MEDICAID SERVICES, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Ms. TAVENNER. Thank you, Chairman Camp, Ranking Member 
Levin, and Members of the Committee.
    On October 1st, we launched one of the key provisions of 
the Affordable Care Act, the new marketplace, where people 
without health insurance, including those who could not afford 
it and those who were not part of a group plan, could go to get 
affordable coverage.
    We know that consumers are having difficulty enrolling via 
the marketplace Web site. It is important to note that the 
Affordable Care Act, however, is more than just a Web site. It 
creates a new market which allows people to access quality 
affordable health care, it allows them to have insurance 
options, it creates a pooling of consumers into Statewide group 
plans that can spread the risk between sick people and healthy 
people, between young and old, and then bargains on their 
behalf to get them the best deal on health insurance. By 
creating competition where there wasn't competition before, 
insurers are now eager for new business and they have created 
new health care plans with more choices. The premiums for 
coverage were lower than expected and millions of Americans 
will also qualify for tax credits to make the coverage even 
more affordable.
    We know that consumers are eager to purchase this coverage, 
and to the millions of Americans who have attempted to use 
HealthCare.gov to shop and enroll in health care coverage, I 
want to apologize to you that the Web site has not worked as 
well as it should. We know how desperately you need affordable 
coverage. I want to assure you that HealthCare.gov can and will 
be fixed, and we are working around the clock to deliver the 
shopping experience that you deserve. We are seeing 
improvements each week and, as we have said publicly, by the 
end of the November the experience on the site will be smooth 
for the vast majority of users.
    Over the past month, millions have visited HealthCare.gov 
to take a look at new health care coverage under the Affordable 
Care Act, and in that time nearly 700,000 applications for 
coverage have been submitted across the Nation. More than half 
of those are in the Federal marketplace alone. This tremendous 
interest confirms that American people are looking for quality 
affordable health care coverage.
    We know that the consumer experience has been frustrating 
for many Americans. Some have had trouble creating accounts and 
logging into the site, while others have received confusing 
error messages or had to wait for slow response times. This 
initial experience has not lived up to our expectations or the 
expectations of the American people, and it is not acceptable.
    We are committed to improving performance and have already 
made progress. In the first few days when the site went live, 
few customers could create an account. Now over 90 percent can. 
We have updated the site several times, fixing bugs and 
improving the HealthCare.gov experience, and we have added more 
capacity in order to meet demand.
    We are pleased with these quick improvements, and parts of 
the system are already working well. For example, the data hub, 
the routing tool that provides an efficient and secure way to 
verify information submitted by consumers, is sending 
determinations to the marketplace in less than 1.2 seconds. 
Social Security has reported 4.2 million transactions with the 
hub and the IRS has responded to more than 1.3 million 
requests.
    Even with this success, we know there is still significant 
work to do, and we have called in a team of experts, led by 
Jeff Zients, to analyze the site, identify and prioritize 
fixes. We have spent the last week going over that. And while 
these problems will require a lot of hard work, the bottom line 
conclusion is this HealthCare.gov site is fixable.
    To get the job done, we have identified a clear path 
forward, a lot of fixes that will be undertaken one by one. To 
ensure the work is done as quickly and as efficiently as 
possible, we have enlisted the help of QSSI to serve as general 
contractor for this project. They are familiar with the 
complexity of the system and the work they have provided for 
HealthCare.gov, the Federal data hub, is working well and 
performing as it should. QSSI has the skills and expertise to 
help us address these problems. They will work with leadership 
and contractors to prioritize the needed fixes and make sure 
they get done.
    We are committed to improving the consumer experience with 
HealthCare.gov. While we continue this work, I encourage people 
to continue to apply by phone, by mail, or by finding local 
help in their community.
    The fact is the product of the Affordable Care Act, a 
marketplace for quality affordable health insurance, will work. 
The product is not going away and the people are not going to 
continue to wait. We know the price is not changing. We know 
Americans have time to apply and enroll in affordable coverage.
    Thank you, Chairman Camp.
    [The prepared statement of Ms. Tavenner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ___________
                                
    Chairman CAMP. Well, thank you.
    Administrator Tavenner, how many people have enrolled in 
the exchanges?
    Ms. TAVENNER. Chairman Camp, that number will not be 
available till mid-November. We have over 700,000 who have 
completed applications.
    Chairman CAMP. So you know the applicants, but do you know 
the enrollees? Do you have an idea of how many of those 
applicants became enrollees? Because that is really the number 
that matters.
    Ms. TAVENNER. We will not have that till mid-November. We 
have people who are shopping now. We expect the initial number 
to be small, and I think you have seen that in our projections, 
and that was the Massachusetts experience as well.
    Chairman CAMP. I have to tell you, the numbers I am hearing 
from insurers in my home State of Michigan are not good, of 
enrollees, it's a very small number. In fact, I think I could 
have a meeting in my office, and have all of them fit in, of 
the people who have successfully enrolled in the plans. I 
understand that CMS' stated goal is 7 million enrollees by the 
end of March. Is that correct?
    Ms. TAVENNER. That is correct.
    Chairman CAMP. And I think critically important, of that 7 
million, 2.3 million of those need to be young and healthy. I 
think those are your metrics. Is that correct?
    Ms. TAVENNER. I don't have that metric with me, but I will 
check on it.
    Chairman CAMP. Okay. I believe those are numbers that CMS 
has put out.
    The Associated Press reported in early September that there 
was a memo prepared by the Assistant Secretary for Planning and 
Health. Are you aware of that press story and that memo? I 
think it went through your office to Secretary Sebelius.
    Ms. TAVENNER. That went through the enrollment numbers?
    Chairman CAMP. Yes. And it said that there were month-to-
month predictions of enrollment numbers showing a path to the 7 
million that I mentioned.
    Ms. TAVENNER. Right.
    Chairman CAMP. Could you make that memo available to the 
committee?
    Ms. TAVENNER. Certainly.
    Chairman CAMP. According to the press report, the memo 
estimated that 494,620 people would sign up for health 
insurance under the program by October 31st. Now, we are 
obviously very near that date. Have you met that estimate?
    Ms. TAVENNER. I will not have those numbers available till 
mid-November.
    Chairman CAMP. So do you not know? Do you not have any idea 
of how many people have enrolled or are you----
    Ms. TAVENNER. Folks are still in the process of enrolling 
both in the State-based exchanges and in the Federal exchange, 
and we will have those numbers available in mid-November.
    Chairman CAMP. Are you getting those numbers?
    Ms. TAVENNER. Am I getting those numbers? Not yet. Not from 
the States.
    Chairman CAMP. You have no numbers on who is enrolled? So 
you have no idea?
    Ms. TAVENNER. We will have those numbers available in mid-
November.
    Chairman CAMP. So no one is forwarding even weekly updates 
on how the system is working?
    Ms. TAVENNER. I think we have seen some of the press, and I 
think that was on the graph earlier, about what States have 
listed. We will get those numbers in mid-November.
    Chairman CAMP. I understand you are not publicly releasing 
those numbers, but I am asking do you have any idea of on a 
weekly basis how many people enroll? I mean, how do you not 
know how many people have enrolled?
    Ms. TAVENNER. Chairman Camp, we will have those numbers 
available in mid-November.
    Chairman CAMP. But is your staff updating you on those? Are 
you getting those on a periodic basis? I realize you are not 
prepared to give this to the committee, even though this is a 
government program and we are trying to do oversight here and 
we are trying to understand what the problems are, but do you 
have some idea of what those problems might be in terms of the 
numbers?
    Ms. TAVENNER. I am not quite sure what you are asking me.
    Chairman CAMP. Well, you have said that 700,000 people have 
completed the application process, so clearly you are getting 
some information. Do you have any idea of how many of those can 
move to the next step of enrolling, looking at plans, how many 
are eligible, how many have decided to enroll?
    Ms. TAVENNER. Once individuals complete the application, 
then they go into the shopping experience, where they can look 
at plans. We do get numbers on the number of applications, and 
then we need to break those out. And that is why I have said, 
this is part of the rollout that we will give in mid-November 
for the October data.
    Chairman CAMP. Okay. So you do have the applications, which 
is the 700,000 number----
    Ms. TAVENNER. Yes.
    Chairman CAMP [continuing]. But you don't have how many 
people successfully enrolled.
    Ms. TAVENNER. I am saying people are still in the process 
of enrolling.
    Chairman CAMP. Of those 700,000, do you know how many of 
those are eligible for Medicaid at this point?
    Ms. TAVENNER. We have some information on who is eligible 
for Medicaid, and then obviously States have their own 
information about that, and it depends on whether a State has 
expanded or not and what is going on inside. It is very State 
specific.
    Chairman CAMP. Can you share with the committee the 
information you have about those that have enrolled that are 
eligible for Medicaid?
    Ms. TAVENNER. We will also have that information available 
in mid-November as well.
    Chairman CAMP. Because that would mean of those 700,000, a 
significant portion would not be in the exchange if they are 
qualifying for Medicaid. Isn't that correct?
    Ms. TAVENNER. We will have that information available to 
you in mid-November.
    Chairman CAMP. Yeah, but the law is that if they are 
eligible for Medicaid they are not enrolling in the exchange. 
That is my question.
    Ms. TAVENNER. Correct.
    Chairman CAMP. So there could be a significant portion of 
that 700,000 that would not be enrolling in an exchange. Is 
that correct?
    Ms. TAVENNER. There could be numbers in there that will be 
eligible for Medicaid, that is correct.
    Chairman CAMP. Do you know how many of the 700,000 have 
qualified employer-sponsored insurance and therefore will not 
be eligible for the exchange?
    Ms. TAVENNER. Those individuals who have employer-sponsored 
insurance, usually at the end of the application they are asked 
that, and if that is the case, they usually don't proceed.
    Chairman CAMP. Do you know how many of those 700,000 are 
young adults, say, under the age of 26 who might choose to stay 
on their parents' plan if it is cheaper?
    Ms. TAVENNER. I do not.
    Chairman CAMP. And do you know how many are undocumented 
aliens and who may not be eligible to enroll in the exchange?
    Ms. TAVENNER. So as you are aware, we actually have a 
connection through the data hub to check for that, and if they 
are not eligible, they do not complete the application and they 
do not go on to shop.
    Chairman CAMP. But of these 700,000, do you have any idea 
how many are just looking and how many are trying to enroll?
    Ms. TAVENNER. We actually look at the people who are 
shopping, and obviously the majority of the people who are 
completing applications are there to actually purchase 
insurance, and so they continue to go through the shopping 
experience.
    Chairman CAMP. Well, there are media reports that say as 
many as 80 percent of that 700,000 number are actually eligible 
for Medicaid. Is that a number you would dispute?
    Ms. TAVENNER. I don't know where that media report is or 
how they would get that information.
    Chairman CAMP. Well, if that is true, I mean, that is the 
only information we are getting, frankly, today. I, frankly, 
would have hoped for a little bit more from you. But if that is 
true, then less than 140,000 of these applicants are 
potentially enrollees in the exchange, and that is assuming 
they don't have employer-provided coverage, that is assuming 
they can't stay on their parents' plan or are otherwise 
ineligible in some other way. But that means you are likely to 
hit less than one-quarter of this October estimate of 494,620. 
How many people did you estimate would enroll between November 
15th and December 15th, which we are 2 weeks off from that 
period?
    Ms. TAVENNER. I don't have that in front of me. I will be 
happy to get you that information.
    Chairman CAMP. If you could get that to the committee, I 
would certainly appreciate that.
    But I think given that the back end systems aren't working 
and insurers have resorted to manually enrolling people one by 
one, I just think the system literally doesn't have the human 
resource capacity to manually enroll the numbers that are being 
projected here.
    I assume that many people who are holding off are the young 
and healthy, so the risk pools in these exchanges are not going 
to align with the projections. So I think not only are we going 
to miss the 7 million enrollee target, it appears that we are 
going to miss the demographic makeup as well, and that is going 
to be very important to have a functioning system. If the 
demographics are wrong and there aren't as many young people 
enrolling, what happens then, what happens to premiums?
    Ms. TAVENNER. I think the premiums are locked down for 
2014, so obviously the next 6 months of enrollment are 
critical. And I will remind you that enrollment does occur till 
March 31st of 2014. I will also remind you that the 
Massachusetts experience was very slow initially and that it 
started to ramp up over time. We expect the same type of 
projections.
    Chairman CAMP. But it doesn't look like you are even 
meeting your own projections that you had prepared.
    Ms. TAVENNER. I have not listed any information on 
enrollment. I think there are some assumptions you are making.
    Chairman CAMP. Well, I am just referring to this Associated 
Press memo that I appreciate you are willing to give to the 
committee that said that half a million people would sign up by 
October 31st and that they would enroll. But if we don't meet 
this demographic of 2.3 million young people, I mean, it is 
very clear that premiums will go through the roof, whether in 
the next few months or in the future. And if that is where we 
are headed, and it appears that we are, how will you provide 
relief to individual Americans who don't want or can't afford 
this insurance, and how do we prevent the premium spike in 2015 
as insurers will readjust their prices to reflect the actual 
enrollee demographic?
    Ms. TAVENNER. Currently, if you look at the premiums for 
2014, we did not see premium spikes, we actually saw a very 
competitive marketplace. In fact, we have over 200 issuers just 
in the Federal exchange alone who have offered more than 3,000 
plans at very competitive prices. So markets have as many as 54 
plans in a market. We have also seen 25 percent new issuers in 
markets. So far what we have seen is the absolute opposite of 
what you are suggesting.
    Chairman CAMP. Have you enrolled in the plan?
    Ms. TAVENNER. I have employer-sponsored insurance. I would 
not be eligible for the plan.
    Chairman CAMP. From the Federal Government? Is that what 
you mean?
    Ms. TAVENNER. Yes.
    Chairman CAMP. So you are not participating in Obamacare?
    Ms. TAVENNER. I am participating in employer-sponsored 
insurance, which 85 percent of the country does.
    Chairman CAMP. So you have government insurance. Have you 
gone on the site and tried to enroll or tried to shop for 
plans?
    Ms. TAVENNER. I haven't gone on to shop for the plans. I 
went on, actually signed up for an account just to see what it 
looked like and go through the application process, but did not 
sign up for coverage. I am not eligible for coverage, nor did I 
shop.
    Chairman CAMP. I just want to mention to you a letter that 
I received from my district. And this man wrote me and said, 
``My wife has been recently informed by her insurance carrier 
that her health care policy does not comply with the Affordable 
Care Act. Now we must purchase a new policy to get the same 
coverage at an 18 percent increase in our premium.'' So what 
happened to the if you like your insurance you can keep it 
question? What would you say to that individual?
    Ms. TAVENNER. Well, I would take them back to pre-
Affordable Care Act days where in fact if you were in the 
individual market, you were living at a 50 percent churn. Half 
the people in the individual market prior to 2010 didn't stay 
on their policies. They were either kicked off for a 
preexisting condition, they saw their premiums go up at least 
20 percent a year, and there were no protections for them. And 
sometimes they were in plans that they thought were fine until 
they actually needed hospitalization; then they found out it 
didn't cover hospitalization or it didn't cover cancer.
    So I would take them back to the fact that since 1986, 
health care costs and coverage have been the number one issue 
for small businesses for the last 20 or 30 years and we have 
been talking about it for the last 20 or 30 years. That is 
actually why I came into this job, is to try to deal with this 
issue.
    So now what I would say is this: Now if, in fact, the 
issuer has decided to change the plan, didn't have to, plans 
were grandfathered in, in 2010. If they didn't make significant 
changes in cost sharing and this sort of thing, they could keep 
the plan that they had. But some insurance companies have 
decided, and I think that is what you were referring to in your 
opening statement, that they want to offer new plans. And if 
they offer new plans, they have to come into the requirements 
of the Affordable Care Act, which are you have to offer the 10 
essential coverage benefits, you cannot judge people on 
preexisting, you cannot discriminate based on sex. There are 
lots of things that are required under the Affordable Care Act 
that actually protect consumers.
    But these premium increases were going on a long time prior 
to the Affordable Care Act, and, in fact, we have seen the most 
premium moderation in the last 3 years than we have seen 
probably in 15 or 20 years. That is what I would say to them. I 
would try to explain to them the real issues.
    Chairman CAMP. Well, the carrier told them that the plan 
didn't comply. But nothing you said had anything to do with how 
they can get their costs down. And I think that is the real 
problem that we are seeing here, is that the costs are----
    Ms. TAVENNER. Right. So what I would tell that individual 
is if their carrier is telling them they are changing the plan 
and they are offering an increase, that they would need to go 
take a look at what is available in their State and in their 
market, which is certainly something that is available to them 
through the exchange.
    Chairman CAMP. Yeah, at an 18 percent increase.
    All right. With that, I will recognize Mr. Levin.
    Mr. LEVIN. Well, thank you.
    A warm welcome.
    The chairman talked about the Web site, and you said it is 
going to be fixed. And I might say, if everybody would pitch in 
to make it work, the goals that have been set would be more 
readily met. That is what happened with the prescription drug 
program. We all pitched in to make it work. And it had major 
problems at the beginning, and instead of standing in the way 
we said, we didn't vote for it, let's make it work, and it 
began to work. If we all had the same spirit about ACA, it 
would be more than helpful.
    But then the chairman asked you about the notices that are 
coming from the insurance companies, and I would like to ask 
you about that. A gentleman from Michigan who had an $800 Blue 
Cross plan got this notice from Michigan Blue Cross, went into 
the Web site with the help of navigators, and ended up with a 
Blue Cross Silver HMO plan with tax credits in that case. And 
instead of $800 a month, it is $77 a month.
    And let me refer you to the interview on ``Meet the Press'' 
with the Blue Cross Florida Chief Executive Officer. He was 
asked by David Gregory, in Florida the oldest and largest 
health care plan provider, Florida Blue Cross, confirmed it is 
cutting 300,000 policies. And this is what the chairman of Blue 
Cross of Florida said: ``We are not cutting people,'' and I 
quote. ``We are actually transitioning people. What we have 
been doing is informing folks that their plan doesn't meet the 
test of the essential health benefits; therefore, they have a 
choice of many options that we make available through the 
exchange, and, in fact, with subsidy, many people will be 
getting better plans at a lesser cost.''
    So this has become a matter of legitimate discussion, and I 
think all of us would appreciate your addressing it.
    Ms. TAVENNER. Yes, sir. Again, going back to prior to the 
Affordable Care Act days, these individuals in a small group or 
individual market had no protections, they had no guarantees of 
coverage, and they were still being charged somewhere between 
20 percent or more of premium increases year over year. So they 
could be kicked out at any time for a preexisting condition. 
Sometimes they thought they had coverage when they did not, and 
when they went in and had a cancer diagnosis or a cardiac 
diagnosis, they found out maybe they had a $5,000 hospital 
limit or they had certain disclaimers. Then, of course, there 
was always, if you were diagnosed with asthma or high blood 
pressure or some other chronic disease, you might not be able 
to get coverage at all. So that is what is different. So that 
is the first part.
    The second part is in 2010 we told issuers to try to give 
some transition time, if they wanted to keep policies as they 
were currently defined, whether they were in a group market or 
an individual market, they could. And so some of them elected 
to do that. Now some of them are moving to the new standards, 
and the standards under the Affordable Care Act are pretty 
simple. You have to have the 80 percent MLR. So you can't be 
taking money more than the 20 percent to marketing, 
advertising, profit. You had to meet the 10 essential health 
benefits. You had to define copay, deductible, and diseases in 
clear and understandable terms so people would know what they 
were buying. You had to have choices among plans. And then 
there are folks in the individual market who when they go on 
the site may qualify for tax credits. Some in some States may 
actually qualify for Medicaid expansion.
    But this problem existed long before the Affordable Care 
Act. Now folks are transitioning to the new standards of the 
Affordable Care Act, which guarantee you can't be denied, you 
won't be kicked off of a policy because you develop a problem, 
you may be eligible for tax credits depending on your income. 
So these are important protections that are now available 
through the Affordable Care Act, and I think that is important.
    Mr. LEVIN. Thank you.
    I yield back.
    Chairman CAMP. All right. Mr. Johnson is recognized.
    Mr. JOHNSON. Thank you, Mr. Chairman.
    Ms. Tavenner, thank you for being here.
    You know, I have been hearing from folks back home who, 
rightfully so, are very serious about their concerns and fears 
about their health care. Steven from Plano tried to purchase 
insurance through the exchange, but ended up more confused and 
frustrated. Operators on the 1-800 line didn't have answers to 
his specific questions. They simply reiterated that anyone 
could sign up for the exchange, but he should wait until later 
that evening or the next day to apply since the systems were 
having technical difficulty.
    Worse, a single father and police officer in Plano went to 
renew his 11-year-old daughter's plan. She has no medical 
problems, yet her premiums doubled--doubled. Those are the real 
stories of fathers, mothers, sons and daughters who have to 
live with a law that up to now has completely failed them.
    Ms. Tavenner, the administration delayed the employer 
mandate for 1 year. The Treasury witness before the committee 
testified the reason the administration granted big business a 
1-year delay is, quote, ``Employers and their representatives 
have requested transition relief for 2014 because of concerns 
about the difficulty or costs of complying with the employer 
mandate.''
    Secretary Sebelius appeared before this committee and 
repeatedly said Obamacare was ready. It clearly wasn't.
    Doesn't the failed launch indicate many individuals are 
going to have to at least have as much difficulty complying 
with the individual mandate as big business had with the 
employer mandate? Yet from the announcement last night, you 
have only given individuals a 6-week delay. CMS announced 
700,000 people had submitted applications for exchange coverage 
nationwide, but with all the challenges you have been facing, 
there are some serious questions about what these applicants 
know.
    CBS news reported, quote, ``The shop and browse feature is 
not giving consumers a real picture. In some cases, people 
could end up paying double what they see on the Web site.'' So 
how many applicants applied based on the wrong premium 
information? Do you know?
    Ms. TAVENNER. The completed applications were done, the 
700,000. These were individuals who completed applications and 
figured out if they were eligible for a tax credit. I do not 
know where CBS news is getting their information about 
erroneous tax credits, so I can't address that.
    I will say that in the individual mandate issue, that folks 
can apply through March 31st. We have said publicly that we 
will have the Web site in good working order by the end of 
November. We have always predicted that folks would increase 
their interest in enrollment in December and probably again in 
March, and so we believe that we are in good shape to handle 
that.
    Mr. JOHNSON. Well, if you have identified the problem and 
are taking steps to identify who received faulty price 
information, apologize--and provide the right information--are 
you doing that now?
    Ms. TAVENNER. Yes, sir. If we have given people the wrong 
information, we will certainly correct it, but I am not sure 
what CBS news is referring to.
    Mr. JOHNSON. I would like to bring to your attention a 
story which ran last week in Mother Jones with the headline, 
quote, ``How HealthCare.gov Could Be Hacked.'' Let me just 
quote from the article. ``Security experts say the Federal 
health insurance Web site is vulnerable to a common technique 
that hackers use to steal personal information.''
    As you may know, I am chairman of the Social Security 
Subcommittee, and one of my longest outstanding priorities has 
been to protect Americans' Social Security numbers. So for the 
record, is the Obamacare Web site 100 percent safe from hackers 
who could steal Americans' personal information, including 
their Social Security numbers, yes or no?
    Ms. TAVENNER. We follow all the standards to protect 
information, including Social Security numbers.
    Mr. JOHNSON. Are you trying to say yes?
    Ms. TAVENNER. Am I trying to say yes that we follow the 
standards to protect information? Yes, sir.
    Mr. JOHNSON. You know, folks are confused and scared. They 
have heard the horror stories and are now experiencing them 
firsthand. How can they trust the Federal Government to not 
only fix the Web site, but more importantly, give them the 
assurance that their personal information will be safe and 
their health care will be affordable, that if they want to keep 
their current plan, they can do so?
    The problems don't stop at the technical failures of a Web 
site. The real problem stems from the colossal failure to 
deliver what this law promised the American people.
    Thank you, Mr. Chairman.
    Chairman CAMP. All right. Thank you.
    Mr. Rangel is recognized.
    Mr. RANGEL. Thank you so much, Mr. Chairman.
    And welcome to our distinguished committee. You may wonder 
why the administration appears to be under such severe attack 
by some Members of this committee, especially as it relates to 
our goal to provide health care for 30 million Americans that 
can't afford or don't have access to it, but it should give you 
some small comfort to know that historically the Republican 
Party always fought vigorously against these types of programs. 
I don't think that one Republican voted for the Social Security 
Act, even though those old enough to enjoy the benefits.
    Chairman CAMP. That is not accurate.
    Mr. RANGEL. Well, we will see maybe one or two. I don't 
know.
    Chairman CAMP. No.
    Mr. RANGEL. But they opposed Medicare. I spoke with 
President Johnson, and he shared with me at the ranch people 
that had signed off on Medicare. And anyway, it is big 
government. Even if it saved lives, who cares. You are against 
big government. So why should Obama be spared the attack 
because he wants Americans to be healthy and strong and 
productive? We have to be consistent, and you guys and ladies 
have been.
    What I don't understand is that people aren't born as 
Republicans and Democrats, and there has to be somebody, 
regardless of party label, that has suffered the embarrassment 
and the pain of being denied an insurance policy because they 
have been sick before. The people who actually need health care 
the most are too high a risk for some of the insurance 
companies, and this body, Republicans and Democrats, allowed 
things like this to happen.
    When I was a kid, if my mother took three of us, three 
children to see a doctor and we weren't sick, they would think 
she was crazy, because you couldn't afford a doctor. Now health 
care will provide you getting the type of treatment to avoid 
you being sick and having to lose your dignity in impersonal 
emergency rooms that provide the most expensive health care 
that we have. But Republicans, who have always been admired for 
being fiscal conservatives, have certainly seen the price of 
health care, the lack of quality that we may have today, soar 
to become such a part of our national budget that, in my 
opinion, it is a threat to our national security, because as 
prone as some of you are to enter into conflict with other 
countries, you need healthy young people to fight these wars. 
And health care is important from birth throughout one's life.
    So I don't know how you are going to explain when this 
program, which is destined to succeed, how politically you are 
going to explain your positions today. And since your entire 
political program is locked into hatred for the President and 
this program, it seems to me that we have to find other ways 
for us to politically combat each other, because I hate to see 
the day that there is no Republican Party and I have to rely 
just on my party for justice and fair play. And so we have to 
come together some kind of way to see what is best for America.
    Now, you may not like this program, and it certainly has 
been disappointing as a start, but what I want to see more from 
this committee is how can we improve and get quality health 
care for all Americans. This has to be a part of the goal that 
all of you have. And you also have to recognize that when we 
are lucky enough to have public servants to work for the 
administration, whether Democrat or Republican, that they are 
servants the same way we are and they deserve some dignity as 
well.
    And so for America, I hope and have every reason to 
believe, like Social Security, like Medicare, that the goodness 
of the program will prevail. And if there is anything that we 
can do to help you, and there may be some Republicans that will 
join with me, to make certain that we get rid of what is not 
working and make certain everyone has access to health care, I 
wish I could see the politics involved in this, because I am a 
partisan, but a stronger America means a stronger party, and 
that is what we are here for. And I just want to thank you for 
your dedication and for you to recognize that it is all 
political and we have to do our job and get on with it. Thank 
you for your service.
    Chairman CAMP. All right. Thank you.
    Mr. Brady is recognized.
    Mr. BRADY. Just a quick fact check on the blast from the 
past. Republicans did support Social Security and Medicare, and 
more recently Republicans were the ones that reformed Medicare 
to add that important prescription drug benefit so we could 
have seniors lead healthier lives, stay out of hospitals, and 
enjoy their grandchildren more.
    What has become abundantly clear, the flaw is not the Web 
site, the flaw is the law itself. This is what happens when you 
inject 159 new Federal agencies, bureaucracies, and commissions 
between you and your health care. And this was supposed to be 
the easy part. Just wait until you see the government making 
decisions about patient care, about reimbursements and 
treatments that you receive from your local doctor and 
hospital.
    Ms. Tavenner, I have a great deal of respect for you, and I 
suspect many Republicans do, yet the White House, Secretary 
Sebelius, you, and your staff made repeated claims to the 
American public and to Congress that everything would be ready 
on time, everything was a go. None of that proved to be true. 
Now we are told everything will be okay very soon. So why 
should the American people believe you now?
    Ms. TAVENNER. Congressman Brady, I would go back to what 
has worked in the last 3\1/2\ years since the Affordable Care 
Act was implemented. We have been able to make a difference in 
the lives of coverage of young people, we have been able----
    Mr. BRADY. But specifically on the Web site and the 
exchanges, why should the American people believe you now? You 
have had nearly 4 years to get it ready. Now you are saying in 
4 weeks more it will be great. So what is different? Why should 
anyone believe these claims?
    Ms. TAVENNER. Because I think we have identified two major 
problems. One had to do with the initial volume. And despite 
our best volume projections, we underestimated the volume, the 
interest in the site.
    Mr. BRADY. But you know that the volume isn't the same as 
the applicants in the enrollment, that you, yourself, visited 
the site. Clearly you weren't shopping for it. Others did as 
well.
    Ms. TAVENNER. Right.
    Mr. BRADY. So to Chairman Camp's point, the number of 
applicants, the number of enrollees, apparently still not 
known, is pretty modest. Wouldn't you agree?
    Ms. TAVENNER. Well, but I would tell you that the number of 
visitors to the site and the number of people interested in 
completing applications was larger than even our initial 
projections. And we worked our projections off of the 7 million 
number that Chairman Camp mentioned. We also worked it off our 
history with Medicare Part D. So we have added capacity to the 
system and we have improved system performance. So that is the 
first thing.
    The second thing is we have found some what I will call 
functional or glitches, as we call them in the public term, in 
the actual application itself which we are repairing, and that 
is the gradual improvements that you will see over the next 4 
weeks and that is why I am confident about the end of November.
    Mr. BRADY. Well, can I tell you, my constituents are 
frightened. Like millions of Americans, they are now being 
forced out of the health care plan that they like. The clock is 
ticking on a Web site that is broken. Their health care isn't a 
glitch. It is what they depend upon.
    So, you know, you have been described as the quarterback of 
the Obamacare rollout. I am sure that is not the term you chose 
for yourself. But can you guarantee no American will experience 
a gap in their health care?
    Ms. TAVENNER. So what I can guarantee is that we have a 
system that is working. We are going to improve the speed of 
that system----
    Mr. BRADY. Excuse me.
    Ms. TAVENNER. Yes?
    Mr. BRADY. You are saying the system right now is working?
    Ms. TAVENNER. I am saying it is working, it is just not 
working at the speed that we want and at the success rate that 
we want, and those are the things we are working on. We also 
have alternative methods for folks. They can use the call 
center, they can use paper applications, and then we have in-
person assistants available in each State. So I can guarantee 
you that we can reach out to each individual and help them 
select a plan and enroll. So, yes, sir.
    Mr. BRADY. But to my point, this is not supposed to be 
fixed until November 1st. People have just 2 weeks to apply, 
enroll, be confirmed. So what happens on January 1st, when they 
have an illness, they need patient care then, they have not 
heard back from the government? What do they do then?
    Ms. TAVENNER. They have until March 31st to enroll.
    Mr. BRADY. No, but their plan has been cancelled, as 
millions of Americans have found out.
    Ms. TAVENNER. You are talking about people who----
    Mr. BRADY. What my constituents want to know, what happens?
    Ms. TAVENNER. The individuals who have received notices 
from their issuers is a different situation. They can certainly 
obviously sign up, transfer, as we talked about earlier with 
Blue Cross of Florida, or they can go on the exchange or call 
the call center----
    Mr. BRADY. But my point is, it has been cancelled, they 
don't have health care, they have tried to get on the Web site 
unsuccessfully, they don't know if they are enrolled, it is 
January 1st, they are facing a gap in coverage. What do you 
tell them?
    Ms. TAVENNER. I am telling you they can call the call 
center today and we will help them. They can go online, and if 
they are not successful, we can help them through the call 
center. We also have people in their individual markets that 
can help them in person. So there are more methods than just 
the Web site, and I think that is important.
    Mr. BRADY. I think what has become clear as well is 
Obamacare is not ready. The question is, why don't we make it 
voluntary? Why don't we give Americans a choice so they are not 
forced into this health care that they don't want?
    Mr. Chairman, yield back.
    Chairman CAMP. Mr. McDermott is recognized.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    Mr. Rangel has asked me to correct something. The vote 
coming out of this committee was on a party line vote. There 
were no Republicans who voted for it when it left this 
committee. When Social Security----
    Chairman CAMP. Will the gentleman yield?
    Mr. MCDERMOTT [continuing]. There were 81 who finally voted 
for it, mostly progressives, but there are none less in the 
Congress.
    Chairman CAMP. Yes, 84 percent of Republicans voted for the 
Social Security act 77 years ago. I am glad we are debating 
current events here, Mr. McDermott.
    Mr. MCDERMOTT. Reclaiming my time, Mr. Chairman. With the 
way my Republicans colleagues have been fretting over the 
success of the Affordable Care Act exchanges, you would never 
know they spent $24 billion shutting down the country to get 
rid of it. Suddenly they seem desperate to see a bill that they 
didn't want actually work. It is like the ``Annie Hall'' joke: 
The exchanges are terrible and not enough people can enroll.
    Now, this is one of the biggest reforms our country has 
ever made and we are only 4 weeks into it. Medicare wasn't 
built in a day. Part D didn't roll out without snags along the 
way. As others have mentioned, many of the Republicans who are 
now calling for blood over this rollout were begging for 
patience on Part D. The kinks of that rollout were easily 
brushed off by many GOP alarmists who sit on this dais. We 
waited 6 months to hold an oversight hearing on Part D. We are 
barely 4 weeks into this one, and we are already declaring it 
dead. It is premature death.
    We would have all loved to see this launch be seamless and 
smooth, but we can't get caught up in the glitches and the 
technical difficulties and lose our perspective. Help lines are 
up and running. I want to put the first chart up, because I 
think that you need to know that it is working in some States 
in this country. We have had a health plan finder in the State 
of Washington that has been out on the street before October 1. 
In Washington State we were ready to go and we have got 92,000 
people who have now enrolled.
    Now, there is a difference between enrolling and being 
approved, having your plan approved, because you have to make 
your first payment. So when you talk about enrollment, you may 
be talking about something different. You are not comparing 
apples and oranges.
    But there are States in which it is working. People can 
sign up by mail, in person. We had actually a mobile signup van 
that is going around the State stopping in small towns and 
giving people a chance to talk to somebody. And 49,000 people 
are already in the program, not just finished the application.
    Now, there have been some glitches, even in our State, but 
we got around them. Our country does have a serious problem, 
however, with access to quality health insurance, and it is not 
being caused by Web sites. All of the computer programmers in 
the world aren't going to be able to help the 180,000 Hoosiers 
that fall into the affordable coverage gap because Indiana 
isn't expanding its Medicaid. Of course, that is nothing 
compared to Georgia's 400,000 people who aren't going to get 
anything, or Florida's 760,000.
    And then, of course, there is Texas. Texas is always the 
best and they are not going to be outdone. Texas boasts 
1,460,430 people who will simply get nothing, no Medicaid, and 
I guess they can come to the government exchange, which people 
here want to kill. That is over a million Texans, working poor 
with minimum wage jobs, multiple of them, and they are just 
trying to get by.
    Now, they could be covered at no cost to themselves or the 
State of Texas, but instead the GOP wants to see this President 
fail because they would rather let their constituents go 
uninsured than compromise. Those Texans and Floridians and 
Hoosiers are simply out of luck.
    Meanwhile, in other red States, like Kentucky, they have 
enrolled already 26,000 people through the State exchange or 
expanded Medicaid. Arkansas, now, they don't want it, either, 
and they don't want to accept the Medicaid money. They 
constructed their own way, in cooperation with the Federal 
Government, and they have got 56,000 people enrolled in 
Arkansas. Now, here is a red State that worked very hard to 
partner with the Federal Government and arrive at a solution 
that is working for its residents.
    It is time really to start working together. Forty-four 
attempts to repeal this law. It is now law, folks. It is now up 
and running. It is going to run. And it is time to stop this 
kind of sniping and get together and figure out how to make it 
work. No one on our side thinks the law is perfect.
    Chairman CAMP. All right. Thank you. Time has expired.
    Mr. Ryan is recognized.
    Mr. RYAN. Thank you. And thanks for being here.
    I think what we are seeing here are all these rude 
awakenings that the American people are waking up to find; you 
know, promises made and promises broken. We had a hearing here 
in this room on August the 1st with the IRS, and the IRS 
confirmed that the delay in the employer reporting requirements 
would mean that the IRS would not have the data on the so-
called back end from employers until 2016 to verify if an 
individual had been given an offer of affordable employer-
sponsored health insurance in 2014. Now, the reason this 
matters is that determines whether a person is eligible for a 
taxpayer-funded subsidy or not.
    To mitigate this, Dan Werfel, the IRS Commissioner, told us 
that, quote, ``We are going to help the individual at the front 
end when they are navigating through the exchange to understand 
whether they have an employer plan.''
    Let me ask you this: Of the 700,000 applicants you have 
received, how many of them did you verify whether or not they 
have been offered employer-sponsored insurance?
    Ms. TAVENNER. The verification of employer-sponsored 
insurance is part of the application process. So if, in fact, 
that was available to them, they would not go on and complete 
the application.
    Mr. RYAN. So it is just a self-attestation. Is that what 
you are saying? You had no way of corroborating this?
    Ms. TAVENNER. We actually ask some additional questions. If 
you have gone online and go through the application, it 
actually requests some additional information. And we have ways 
of verifying whether or not employer-sponsored coverage was 
offered. So it is not just as simple as yes or no. If they 
don't have it, it is a no, and so we accept that. If it is a 
yes, then we try to work with them to see if they are eligible 
for anything or not.
    Mr. RYAN. Okay. So I look at yesterday, you released a 
report that purported to talk about premiums for young adults. 
The report admits, quote, ``These estimates do not take into 
account the tax credit eligibility requirements relating to 
other minimum essential coverage or tax filing requirements.'' 
Young adults on their parents' plans.
    Let me ask you this. Are you proactively finding out if 
individuals under the age of 26 who are eligible to stay on 
their parents' plan are doing that or not? Because they are not 
eligible for a subsidy then as well.
    Ms. TAVENNER. Right. So what we have seen is since the 
Affordable Care Act we have over 3 million young adults who are 
getting coverage through their parents' plans, which is pretty 
much the pool that we anticipated. So they are going through 
their parents' plan.
    Mr. RYAN. No, but when they go on the Web site, are you 
verifying whether or not their parents have a plan that they 
are eligible for before determining whether they, themselves, 
get a subsidy?
    Ms. TAVENNER. It is part of the application process. I can 
get you more information on that.
    Mr. RYAN. Well, here is the point. Look, 2 weeks ago in the 
CR we passed a law that President Obama signed, quote, ``Prior 
to making such credits and deductions available, the Secretary 
shall certify to Congress that the exchanges verify such 
eligibility consistent with the requirements of the act.''
    Here is the question. Are we really verifying at the front 
end whether a person is actually eligible for these subsidies 
or not? Here is why this matters. If they are not eligible for 
the subsidy, and then once we reconcile these records, they get 
taxed the money back off of their refund.
    And so this is what I mean when I say rude awakenings. 
People are signing up for insurance, they are getting tax 
credit subsidies funded by taxpayers. The IRS is already 
telling us they are confused about how to do this. You are not 
telling us whether or not you are proactively determining 
whether, say, an under-26-year-old is actually eligible for the 
subsidies you are trying to sell them. And the problem is once 
we learn whether or not they were eligible, and if they 
weren't, people in good faith will be signing up for subsidies 
that they are actually not eligible for.
    Ms. TAVENNER. I think you are asking a different question, 
which is, are we doing 100 percent income verification on 
everyone?
    Mr. RYAN. And subsidy eligibility verification.
    Ms. TAVENNER. Yes. So part of the question in the 
application process is, are you dependent on your parents? Are 
you dependent on your parents' tax plan? So that is part of the 
questioning that goes on. And if so, we move them in that 
direction. But more importantly, part of what you are asking is 
the income verification, which is done in 100 percent of the 
cases.
    Mr. RYAN. I am not asking about income verification.
    Ms. TAVENNER. Okay.
    Mr. RYAN. I am asking about, if a person signs up, were 
they offered credible employer insurance? Because the employer 
mandate has been delayed you don't have that verification tool, 
so you had to come up with a new verification tool to determine 
their eligibility for subsidies. Because if a person is offered 
insurance at their job----
    Ms. TAVENNER. Right.
    Mr. RYAN [continuing]. That meets your definition of 
credible insurance, then they can't get Obamacare subsidies.
    Ms. TAVENNER. That is correct.
    Mr. RYAN. If a person is 25 years old and they go on the 
Web site and they say their income is X, and that is eligible 
for subsidy, they can get that subsidy. But if they were 
eligible to be on their parents' plan they are not allowed to 
get that subsidy.
    Ms. TAVENNER. That is right.
    Mr. RYAN. The question is, are you filtering that?
    Ms. TAVENNER. Yes.
    Mr. RYAN. Because here is the problem. If you get this 
wrong, the way the law works is you have to take that money 
back in their tax refund. Tax refunds matter. People plan their 
lives around their tax refunds.
    Ms. TAVENNER. I understand that.
    Mr. RYAN. They plan their spring breaks for their kids. 
They plan their car payments, their bills. And what people in 
this country don't yet know is that if you get this wrong, 
which you have already acknowledged you are not doing it right, 
they are going to get their tax refund taken away from them 
because they will have signed up for a subsidy that they 
weren't eligible for which they didn't even know.
    Ms. TAVENNER. And if you have been on the site, this is 
part of the clear instructions to folks, including the under 
age 26, including the fact that you are basically completing 
this application under penalty of perjury. It is very clear. 
There is also help instructions on each site to explain each 
process, what is credible employer coverage, what happens if 
you are under 26. It is all available on the Web site.
    Mr. RYAN. Okay. So if they get it wrong, they are the one 
who is going to get taxed.
    Chairman CAMP. Okay. Time has expired.
    Mr. Lewis.
    Mr. LEWIS. Thank you very much, Mr. Chairman.
    Thank you, Madam Administrator, for being here. Thank you 
for all your hard work and for your years of service.
    I happen to believe that health care is a right and not a 
privilege, that it is not just for the fortunate few, but all 
citizens of America.
    Now, the Affordable Care Act is the law of the land. It was 
passed by the Congress, signed into law by the President of the 
United States, and upheld by the United States Supreme Court. 
There have been more than 40 attempts to repeal the act, and it 
did not succeed. And by attempting to repeal it, Members of 
this body, Members on the other side of the aisle closed down 
this government and threatened the economy of the United 
States, costing us more than $24 billion.
    This reminds me of another period in our history not so 
long ago. During the 1950s, many Southern Senators signed the 
Southern Manifesto after the Supreme Court decisions of 1954. 
And those Senators, along with many Southern governors, 
subscribed to the doctrine of interposition and nullification, 
and some even massive resistance. That is what we saw on the 
part of the Republican Members of the House and some of the 
Republicans in the Senate.
    The Affordable Care Act is working. It is helping to make 
health care affordable and accessible to hundreds, thousands, 
and millions of our citizens who never had it before. When I 
was growing up in rural Alabama, we couldn't afford to see a 
doctor. None of the poor people in Alabama, in Georgia, in 
Kentucky, in Arkansas, and all across the Deep South can see a 
doctor. We must do what is right, what is fair, and what is 
just.
    Now, Madam Administrator, I have a chart here this morning, 
and I want you to walk us through this chart. And I want to use 
my remaining time for you to explain to the Members of the 
Committee the success and the benefits of the ACA. There have 
been a deliberate and systematic attempt on the part of the 
majority in the House and the minority in the Senate to make it 
impossible for all Americans to receive quality health care. 
And some of us will not stand for it. We will stand up and 
fight for what is right, for what is fair, and what is just. 
Health care is a right and not a privilege. Walk us through the 
chart.
    Ms. TAVENNER. Let me start with the 78 million consumers 
saving $3.4 billion on their premiums. This is due to some of 
the work that was done around the medical loss ratio. These 
were benefits that actually went in forms of checks to 
individuals. I actually got thank you notes from people that I 
have never heard of, that I have never met thanking me for 
getting a rebate back. It could go to the individual or it 
could go back into their premium for the following year.
    Seventeen million children with preexisting conditions used 
to be able to be denied coverage, this goes back to the flaws 
in the individual market that existed prior to the Affordable 
Care Act; 6.6 million young adults able to stay on their 
parents' health insurance plan, that is critical, particularly 
at the time with what we were going through with our economy; 
7.1 million seniors in the donut hole. And let me remind you 
that in addition to that, you saw our release yesterday about 
the Part B premium being flat for next year. That is some of 
the work of the Affordable Care Act in controlling costs.
    And let me just say, going back to your point, Congressman, 
is that if we had the highest outcomes, if we had the lowest 
infant mortality, if we had the longest lifespan, maybe what we 
were paying would be worth it. But it is not the case. As you 
know, our country does not look good in terms of overall health 
statistics, and certainly the South is suffering from that more 
than the rest of the country.
    Mr. LEWIS. Thank you very much.
    With that, I yield back my time.
    Chairman CAMP. All right. Thank you.
    Mr. Nunes.
    Mr. NUNES. Thank you, Mr. Chairman.
    Madam Administrator, just in response to Mr. Ryan's 
question, we went through the Web site, and we don't see 
anywhere where it shows that if you are under 26 that there is 
a verification.
    Ms. TAVENNER. So let me also say one thing that I had 
wrong. As a young adult you can stay on your parents' policy 
and you can get your coverage that way.
    Mr. NUNES. But the question was there was no check on the 
subsidy.
    Ms. TAVENNER. Or you may go as an individual and you would 
be eligible for a subsidy. There is no penalty.
    Mr. NUNES. Well, if you are 26, if you are under the age of 
26----
    Ms. TAVENNER. You can go either way.
    Mr. NUNES [continuing]. To Mr. Ryan's point, you can get a 
free subsidy and get that back on your tax return. That was the 
point Mr. Ryan was making. And there is nowhere----
    Ms. TAVENNER. You are eligible for a subsidy, yes.
    Mr. NUNES. You are eligible. So you can be on your parents' 
health care. And you are still eligible for a subsidy.
    Ms. TAVENNER. But I will remind you part of what you 
complete on the application is do you have coverage. You are 
also under penalty of perjury. So you have to tell the truth on 
your application. That is kind of a requirement.
    Mr. NUNES. Okay. In your submitted testimony you attributed 
the problems to HealthCare.gov Web site to a subset of 
contractors. Is that correct?
    Ms. TAVENNER. I don't think I said that it was due to a 
subset of contractors. I said we had two issues that we were 
dealing with. The first was capacity, in that our first few 
days the volume was more than we anticipated, so we had to add 
capacity. We had a problem with account creation, with the 
email account creation, which was subsequently fixed.
    Mr. NUNES. So on your August 1 testimony to the House 
Energy and Commerce Committee, to Congressman Pitts' question, 
do you remember this question?
    Ms. TAVENNER. You will have to ask the question.
    Mr. NUNES. He asked, and I quote, ``Do the contractors who 
HHS is paying to build these exchanges have certain targets or 
milestones that they have to meet?'' You replied, 
``Absolutely.'' Congressman Pitts then asked you, ``Can you 
tell us today that every contractor has met these targets and 
is on time?'' You replied, ``Yes, sir, I can.''
    So it seems there are two possibilities here. First, the 
exchanges were progressing fine for years, just as you 
repeatedly told Congress, and the breakdown resulted solely 
from problems with a few contractors that suddenly occurred 60 
days before Obamacare was open to the public. Or the second 
possibility is, is that there were problems much earlier that 
were being reported in the press, but you did not tell Congress 
about these. Which is closest to the truth?
    Ms. TAVENNER. If I remember the questions correctly, what 
Congressman Pitts was asking me related to the hub, and the hub 
was progressing on time and on schedule. It still is. The hub 
has actually operated pretty much flawlessly. And most of the 
questions were around the hub.
    Mr. NUNES. So it has been also reported that neither 
criminal background checks nor high school diplomas will be 
required for so-called navigators to be hired to help Americans 
access the exchanges. Is this true?
    Ms. TAVENNER. Could you repeat that? I am sorry.
    Mr. NUNES. Neither high school diplomas nor criminal 
background checks will be done on the folks that you hire to 
help Americans navigate the Obamacare Web site.
    Ms. TAVENNER. I don't think that that is true. Are you 
talking about through the navigator program? There are 
standards, and I can get you those standards.
    Mr. NUNES. Okay. Well, it has been a press report.
    Has anyone in the White House or anyone else asked you to 
delay divulging enrollment numbers as it regards to Mr. Camp's 
question at the beginning?
    Ms. TAVENNER. No. I think if you remember, we had said all 
along that we were going to release our first numbers the 
middle of November.
    Mr. NUNES. So no one at the White House, no one in the 
entire Obama administration has asked you not to release those 
numbers.
    Ms. TAVENNER. We have made a group--we made the decision 
that we were not releasing the numbers till mid-November.
    Mr. NUNES. And you don't know, you have no idea what those 
numbers are at this point?
    Ms. TAVENNER. I told you we would release the numbers in 
mid-November.
    Mr. NUNES. Okay. I will take that as you don't want to 
answer the question.
    Did you ever argue to Secretary Sebelius, or to anyone at 
the White House, or to anyone else that the exchanges would not 
be ready October 1 and that a delay in launching them would be 
warranted?
    Ms. TAVENNER. I did not ever argue that we should delay the 
exchanges. What I did present to the Secretary in September is 
that there were certain functions that we should delay beyond 
October 1, and I think those have been very much in the press. 
That had to do with the automation of SHOP. It had to do with 
the Spanish-language Web site. It had to do with Medicaid 
account transfers. So that was presented in September as things 
we would not bring live October 1.
    Mr. NUNES. Before my time expires, I want to yield quickly 
just 5 seconds to Mr. Ryan.
    Mr. RYAN. Look, I find it puzzling we have to explain to 
administration officials how the law works. The law is if you 
are under the age of 26 and you are eligible to stay on your 
parents' plans you cannot receive subsidies.
    Ms. TAVENNER. You are right.
    Mr. RYAN. And there is nothing, nothing on your Web site 
that tells an under-26-year-old those facts. So you are 
encouraging people to sign up for insurance and a subsidy that 
they may not be eligible for and they don't even know this.
    Ms. TAVENNER. Congressman Ryan, I am happy to go back and 
check on that and get you information.
    Mr. NUNES. Yield back.
    Chairman CAMP. All right. Thank you. Time has expired.
    Mr. Neal.
    Mr. NEAL. Thank you, Mr. Chairman.
    I think one of the differences here in the legislative 
modeling is the way that we attempted to repair the drug 
prescription benefit, known as Part D, in terms of addressing 
the donut hole. We didn't suggest that we wanted to repeal the 
law. We simply said to repair it. And I remind everyone that 
part of it was gimmickry as it related to the donut hole as 
well. But our position was let's improve it. And in the 
Affordable Care Act, I think that you could safely say that 
that has happened.
    Now, I want to go to a broader argument here, and that is 
that 97 percent of the people in Massachusetts are covered, and 
virtually every child in Massachusetts is covered. We are in 
the midst of marketing the open enrollment plan. And I got to 
tell you the marketing is terrific.
    But I want to come to another point, and that is the 
following. There is a great picture at Faneuil Hall, where much 
of the American Revolution was designed and hatched, of 
Governor Romney--or as we know him on this committee, Paul 
Ryan's running mate, the other guy on the ticket--Ted Kennedy, 
the Heritage Foundation, and the governor sets his hand to this 
legislation, which has become a model for applicability, 
efficiency, and success. Hardly perfection. But what a grand 
possibility. Why, in your estimation, has the Massachusetts 
plan worked?
    Ms. TAVENNER. I think the Massachusetts plan over time has 
allowed individuals to not have to worry about preexisting. It 
is required that they have insurance. It is required that they 
participate in group coverage, a group market. It is the same 
principles we have applied through the Affordable Care Act. And 
it has been a huge success. They started out very slowly. It 
took them years to get to where they are today. But they do 
have good coverage. And if you look at their outcome, they have 
got excellent outcomes in health care as well.
    Mr. NEAL. The business community worked with the governor, 
worked with a Democratic legislature that has three Republicans 
in the State Senate, and they came to the conclusion that using 
the discipline of the marketplace could be part of the 
solution. And getting everybody in was the ideal. And then we 
would argue about many of the other matters. But getting 
everybody signed up was a key component, and we would use the 
private sector to discipline price. Correct?
    Ms. TAVENNER. That is correct.
    Mr. NEAL. So I guess the argument we have here is, why 
wouldn't we be trying to sand the edges of the ACA to make it 
work as opposed to this determination to make sure that it 
doesn't work?
    Yield back my time.
    Chairman CAMP. Thank you.
    Mr. Tiberi is recognized.
    Mr. TIBERI. Thank you, Mr. Chairman.
    Thank you, Ms. Tavenner, for coming today. You have got a 
great reputation. Thank you for your service. You have got a 
very difficult job to do. Best of luck in doing it.
    I want to just make a note to you and to the members of the 
audience here. On September 30, the Republican House passed a 
continuing resolution that funded government and delayed for 1 
year the individual mandate and the implementation of this 
bill. That was on September 30. That died in the Senate, 
delaying this for 1 year.
    The reasons why we believe that was the right policy, and I 
think history will show that it is, is what we have seen in the 
28 days since, and that is the disastrous unveiling of this 
bill. You don't have to be a Member of Congress and talk to 
constituents to understand the difficulty that the 
implementation has caused in people's daily lives. And as Mr. 
Brady said, the nervousness and the fear.
    You have been telling us that there are other options, in 
addition to the Web site. The President actually has gone out 
and sold that pretty well. So if a constituent of mine goes and 
makes the phone call to try to find out some information, can 
she find out by calling the phone number if the doctor in her 
current network is covered?
    Ms. TAVENNER. She cannot find out through the phone call if 
the doctor--and that is I think true--that was true in the 
market prior to the Web site.
    Mr. TIBERI. Can she find out if the plan costs more than 
her current plan?
    Ms. TAVENNER. Yes, I think she can find that out.
    Mr. TIBERI. By calling the phone number?
    Ms. TAVENNER. Yes. What happens is they work them through 
the application. The call center would help them.
    Mr. TIBERI. She has to actually apply before she can shop.
    Ms. TAVENNER. Well, yes, that is important because it is 
important to understand if she is eligible for a tax credit, 
because that affects the prices that she would pay.
    Mr. TIBERI. So can she find out the cost of a plan without 
signing up or comparison shop without signing up?
    Ms. TAVENNER. So if you are not interested in the tax 
credit and you just want to know what rates are available, we 
actually have on the Web site the ability to do that. So, yes.
    Mr. TIBERI. But the Web site is not working.
    Ms. TAVENNER. No, this is actually on the front end. What 
is not working sometimes are some of the pieces inside the 
application. But if she is just interested in rates in her 
market, that is available through the Web site. There is also 
the ability, and we have a link with that on the Web site, to 
use Kaiser's site that also allows them, if they believe they 
are eligible for tax credits, to actually go in and simulate 
what that would be like for them.
    But if they want to know, if they are not interested in tax 
credits, they just want to know what is available to them, 
which I have had several friends who have said to me, I know I 
am not eligible for a tax credit, I just want to see what rates 
are available in the individual market.
    Mr. TIBERI. But they have to sign up to do that.
    Ms. TAVENNER. No, they do not.
    Mr. TIBERI. You are positive on that.
    Ms. TAVENNER. I am positive on that.
    Mr. TIBERI. Isn't the person who is on the phone with my 
constituent who is trying to find out if their doctor is in 
network or----
    Ms. TAVENNER. No, you asked a different question. Doctor in 
the network I said is not available through the Web site.
    Mr. TIBERI. Right. So the person who is making the phone 
call, my constituent is talking to somebody on the other line, 
aren't they accessing the same information on the Web site that 
our constituents are encouraged not to do because the Web site 
is not working?
    Ms. TAVENNER. So two different issues. If they are 
completing an application then they would complete the 
application and we would give them information. But if you are 
just interested in knowing what the insurance rates are in your 
area, that is actually available without completing an 
application. You can just go on the Web site and get that 
information.
    Mr. TIBERI. But if they are accessing the phone network 
because they can't access the Web site----
    Ms. TAVENNER. They can give them that information.
    Mr. TIBERI. Isn't that person they are talking to accessing 
the same Web site?
    Ms. TAVENNER. Yes. But it is not inside the application.
    Mr. TIBERI. So we are asking people to call and talk to a 
person who is accessing the same Web site that we are 
encouraging our constituents not to use because it is not 
working right.
    Ms. TAVENNER. Let me try this again. The problem that we 
have in the Web site sometimes is in the application process 
itself. Inside the application people were getting stuck in the 
application process. What you asked me is can you get plan 
information without completing the application process, 
therefore not getting into the problems. And the answer to that 
is yes.
    Mr. TIBERI. Okay. Let me just tell you the concern that I 
have----
    Ms. TAVENNER. Okay.
    Mr. TIBERI [continuing]. That you are going to have to deal 
with, and the members of the other side of the aisle won't 
acknowledge. We understand the Affordable Care Act is the law 
of the land. We do. But we also understand from our 
constituents that there is a disaster of a rollout that is 
occurring, not a hiccup, but a disaster of a rollout that is 
occurring. I have constituents who have said to me their doctor 
is not going to be covered in the new plan. Their plan is going 
to be more expensive. And finally, a constituent who said, let 
me get this straight, Congressman, you guys passed a bill that 
tells me that I am transitioning, you are telling me to 
transition to another plan, and you are telling what that plan 
is going to be. It is not going to have the same benefits that 
I have now. I am going to pay more. But you are going to give 
me a tax credit back so I can pay less, even though it is going 
to cost more.
    That is just crazy. And for us not to acknowledge that is 
crazy is just so disappointing and discouraging.
    I yield back.
    Chairman CAMP. The time has expired.
    Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman.
    While I am troubled by the determination of our Republican 
colleagues to destroy the rights of Americans to access 
affordable health care, I recognize that the promise of 
affordable health care can also be denied through a management 
failure. I share some of the concerns that have been raised 
here this morning. And if there were even one Republican Member 
of this committee who wanted to fix the shortcomings in the act 
and to learn lessons from the rollout about how to improve 
access, we could have a constructive hearing that focused on 
those limitations and how to address them. At the top of the 
list for any Texan would surely be the million people that, 
when we thought we were providing protection when we enacted 
this law, who are getting absolutely nothing out of it.
    The limitations with the Web site are a part of the concern 
that I have. Let me ask you specifically, will the SHOP Web 
site for small businesses that was delayed be fully functional 
during November?
    Ms. TAVENNER. Yes. We will institute the SHOP component at 
the end of November.
    Mr. DOGGETT. Will the twice-delayed Spanish-language 
version of HealthCare.gov be fully operational in November?
    Ms. TAVENNER. By the end of November, yes, sir.
    Mr. DOGGETT. There are estimates that three out of four 
eligible individuals for the Web site need some in-person 
assistance--eligible for tax credits--will need some assistance 
in person to access that. That is why the navigators, for one, 
are so very important. In large measure because of the statute, 
people in Maryland get 15 times as much money per individual 
uninsured eligible for the exchange for the tax credits as do 
people in Texas. People in California get about four times as 
much. It makes it all the more important that the navigator 
system work as well as the Web system works.
    I have had some concerns about the way that navigator 
system works and have been asking whether it is possible to get 
prompt reports about whether the navigators are doing their job 
and whether they are accessing people, whether by paper, phone, 
or Web. I have been told that there are no progress reports 
that will be available on those navigators and what they are 
doing until after the beginning of the year. Surely, there are 
some reports that you can make available that will tell us 
whether these navigators are doing any more than the little I 
have seen them do in my part of Texas.
    Ms. TAVENNER. Yes, sir. You should not have to wait till 
the first of the year.
    Mr. DOGGETT. You can get us progress reports?
    Ms. TAVENNER. Yes, sir.
    Mr. DOGGETT. When you announced the navigator grants for 
Texas, there was an indication in the original notice that 
there would be a second round of navigator grants. Instead, it 
appears that contracts were reached with two national firms to 
provide enrollment assistance, and those firms are at least 
required to provide in some cases weekly reports on their 
progress. In what way are those enrollment assistance two 
companies--I believe the one for Texas is called Cognosante, 
they got a total of about $30 million, much more than any 
individual entity as a navigator in Texas--in what way are they 
being integrated with the local navigators and assistance 
counselors to reach out to the uninsured?
    Ms. TAVENNER. And I can get you that information. But I 
will tell you that there are navigators inside each of the 
Federal exchange States that we awarded contracts to. But in 
addition to that, there are volunteers through the Texas 
Hospital Association and others. And I can get you a full 
report of that.
    Mr. DOGGETT. Okay. Well, I am interested, and today is not 
the first time I have asked for a full report as to how these 
enrollment assistance folks came into being and how they are 
involved with local folks. We have had to set up, in San 
Antonio and in Austin, our own network to try to make up for 
what we did not get in the way of Federal assistance at the 
local level. And these new enrollment assistance people, I am 
interested in getting prompt progress reports on them also to 
see what they have actually done, if they have actually signed 
anyone up, and what kind of people they are signing up, and 
whether this is, the navigator system, the enrollment 
assistance system, the certified counselors are any better 
organized and coordinated than the Web site and the 55 
contractors have been.
    Another area of concern----
    Chairman CAMP. Time has expired, Mr. Doggett.
    Mr. Reichert is recognized.
    Mr. REICHERT. Thank you, Mr. Chairman.
    This law started out on a troubling note right from the 
beginning. Republicans were not a part of the process, weren't 
asked to be a part of the process in building this law. And 
Nancy Pelosi herself said we must pass the law to find out what 
is in the law.
    And as one of my colleagues mentioned this morning, let's 
just sand around the edges. We have done some sanding around 
the edges. And that is basically due to the fact that the 
Republicans have been calling attention to some of the issues 
that now we are becoming aware of because people are now 
beginning to read the law and finding out what is in it. So 
three programs have been completely halted since the law has 
passed. Seven others have been repealed and have had funding 
rescinded, and they have been signed into law. Now, that takes 
Republicans and Democrats and the President of the United 
States to agree to all those things for those things to happen.
    I think that most people feel right now it is not time for 
any sanding to take place, but the chainsaw needs to come out. 
So we are going to keep on, and we are going to be persistent.
    Were you working for CMS on January 29, 2010?
    Ms. TAVENNER. January 29?
    Mr. REICHERT. Were you part of the process in working to 
help implement Obamacare?
    Ms. TAVENNER. I actually was not working for CMS January 
29, 2010.
    Mr. REICHERT. Okay. When did you start working to implement 
the health care law?
    Ms. TAVENNER. I actually came to CMS late February of 2010.
    Mr. REICHERT. Late February. Do you know if you can keep 
your health care plan if you like it?
    Ms. TAVENNER. Do I know that I can keep my health care 
plan?
    Mr. REICHERT. Do you know if it is true, as the President 
has said and many Democrats have said, if you like your health 
care plan you can keep it? Is that a true statement?
    Ms. TAVENNER. There were health care plans that were 
grandfathered----
    Mr. REICHERT. Is that a true statement?
    Ms. TAVENNER. It is a true statement that plans were 
grandfathered in.
    Mr. REICHERT. Okay. Thank you for that answer. So if you 
like your doctor you can keep your doctor, too. Is that a true 
statement?
    Ms. TAVENNER. I think doctors come and go inside networks.
    Mr. REICHERT. So if a person has a doctor and they want to 
go to that doctor and the doctor is in the network, they can 
still go to that doctor? They can keep their doctor if they 
like their doctor?
    Ms. TAVENNER. If that person is in a plan where that doctor 
is in the network, they can keep that doctor.
    Mr. REICHERT. On January 29, 2010, and it has been reported 
even today in some of our papers, the President knew years ago 
you are not going to be able to keep your health care plan. You 
are not going to be able to keep your doctor in this health 
care plan. He talked to the Republican retreat on January 29, 
2010, and he said, when he was asked the question about keeping 
your doctor or your health care plan, he said, quote, ``For 
example, you know, we said from the start that this was going 
to be important for us to be consistent in saying to people if 
you can have your--if you want to keep your health insurance 
you have got it, you can keep it, that you are not going to 
have anybody getting in between you and your doctor and your 
decision-making.'' And then he says, ``And I think that some of 
the provisions that got snuck in might have violated that 
pledge.''
    Are you aware of some of those provisions that got snuck in 
that might have violated that pledge?
    Ms. TAVENNER. I do not know what you are talking about.
    Mr. REICHERT. I just gave you a quote from the President of 
the United States, your boss.
    Ms. TAVENNER. No, you are asking me the provisions that 
were snuck in, and I don't know.
    Mr. REICHERT. Yeah. Are you not familiar with the health 
care law?
    Ms. TAVENNER. I am very familiar with the health care law.
    Mr. REICHERT. The President apparently is aware of some 
provisions that were snuck into the law that says that, you 
know what, you are not going to be able to keep your health 
care plan, you are not going to be able to keep your doctor. 
But yet you just said you can. So you must not be aware. You 
didn't read the law, as Nancy Pelosi said you should, when the 
thing was passed. Otherwise, you would know about those 
provisions.
    You know, in Washington State my constituents can't keep 
their health care plan; 290,000 individuals in Washington have 
received notices canceling their health care plan. Do you know 
that that is happening? Have you heard those stories?
    Ms. TAVENNER. I am aware that there are issuers in States 
who are canceling their old plans, which were grandfathered in, 
and moving to new plans which have to meet the requirements.
    Mr. REICHERT. So what you just said about keeping your 
health care plan isn't true.
    Ms. TAVENNER. No, they could keep it. The issuers chose----
    Mr. REICHERT. No, they can't keep it. They just got 
cancellation notices. You can't keep it. The President says you 
can't keep it. Why are you saying you can? I don't understand.
    Chairman CAMP. All right. Time has expired.
    Mr. Thompson is recognized for 5 minutes.
    After that, in order to make sure everyone has an 
opportunity to question, Mr. Levin and I have agreed to go to 3 
minutes.
    So you are recognized for 5 minutes.
    Mr. THOMPSON. Can you start the clock again? They started 
it when you recognized me.
    Chairman CAMP. All right. We will give you those 10 seconds 
back. There you go.
    Mr. THOMPSON. Thank you very much. Thank you, Mr. Chairman.
    Ma'am, thank you very much for being here.
    I want to thank my colleague from California who earlier 
pointed out that it wasn't you or CMS that set up this computer 
system, that you used private sector outside vendors. And I 
think that that speaks to an issue that at some point we need 
to look at, and that is our Federal procurement process, which 
is in part responsible for a lot of the problems that we have 
seen.
    And I also want to thank Mr. Neal for pointing out that in 
fact when we work together we can avoid a lot of the problems 
that we are seeing. And we should be working together to make 
sure people have access to quality affordable health care 
rather than trying to find fault and blame and trying to defund 
or derail or sabotage a program that is designed to help people 
have access to quality affordable health care.
    And nowhere is that seen better than looking at what we are 
doing in some of the States. And it is my understanding, and 
some of my colleagues have pointed it out today, that we have 
some States that are doing a pretty good job with their 
delivery of the Affordable Care Act. My home State of 
California has something called Covered California. And I 
understand that we have had about 125,000 applications that 
have been submitted, about 2 million unique visits to the Web 
site, and about 150,000 calls daily to Covered California, 
because people really do want to have coverage.
    There has been many benefits in my home State. About 
200,000 people are covered with preventive care. About 40,000 
kids who have preexisting conditions now have coverage. About 
100,000 seniors are getting preventive care under Medicare. I 
have had a number of people who have contacted me, and I will 
just mention two, Samuel Calicura from Martinez, who said that 
he was paying $131 a week, and now he is paying $45 a month for 
his coverage. Cynthia Adams from Santa Rosa was paying 600 
bucks a month. Now she is paying $134 a month.
    Now, in full disclosure, as I have mentioned to you 
privately, I have had some terrible messages from people who 
are experiencing some real problems with the system. Usually it 
is insurance companies, as some of my colleagues on the other 
side of the aisle have mentioned, are canceling their 
grandfathered-in programs and policies and issuing new 
policies. And I have even had a community college in my 
district that is using the Affordable Care Act to reduce hours 
of part-time employees. So just about everything that has 
happened that has been bad in the last 3 years has been 
associated with Obamacare.
    And I think we need to be able to draw the distinction and 
point people to these exchanges so they can do some comparison 
shopping and get these policies that will provide them with 
insurance. And I would like to see you guys do a more 
aggressive job in regard to that.
    I would like to know from you, ma'am, how are the State 
exchanges working? And what effects are the problems of the 
Federal Web site having on State-run exchanges? And how are the 
new upgrades and the Web site fixes going to affect State-run 
exchanges such as Covered California?
    Ms. TAVENNER. Let me say that the State-based exchanges are 
doing a very good job. And California, as you mentioned, has 
been a really nice success story. But there are large and small 
States. Obviously, California and New York are huge States that 
are having great success.
    Where we have been able to work closely with them, and we 
talk with them daily, is obviously they use the hub for 
verification of information, and the hub has worked pretty much 
flawlessly. And I always knock on wood when I say that. So they 
have been able to get information. The problems that we are 
seeing inside the application process do not affect the State-
based exchanges. So the information they need from us they are 
able to get.
    You all may have been aware that there was an incident over 
the weekend with Verizon that took the whole site down. And 
when it did, it also took down the hub. So States were impacted 
during the day on Sunday and into Monday with an issue with 
Verizon. But other than that, they have been able to come and 
go and access the hub without difficulty.
    Mr. THOMPSON. Thank you, Mr. Chairman. I yield back my 
time.
    Chairman CAMP. Thank you.
    Dr. Boustany is recognized for 3 minutes.
    Mr. BOUSTANY. Thank you, Mr. Chairman.
    Welcome. Good to see you.
    I think in answering Chairman Camp earlier you established 
the fact that of the Nation's 2.7 million uninsured from 18 to 
35 years of age, you are not going to reveal numbers on who has 
enrolled in that age group until sometime in mid-November. Is 
that correct?
    Ms. TAVENNER. Yes, sir, mid-November.
    Mr. BOUSTANY. Okay. Same goes for applicants? You will have 
no metrics on the number of applicants in that age group?
    Ms. TAVENNER. We will release our metrics in mid-November.
    Mr. BOUSTANY. Okay. How confident are you that those in 
this age group will actually sign up for the exchanges given 
that they don't actually get information on the plans unless 
they actually go through the application process?
    Ms. TAVENNER. You know, we have actually had feedback from 
individuals who have worked through the application process, 
who have signed up, and there has been good representation, 
good stories in the young age group as well.
    Mr. BOUSTANY. I mean this is a tech-savvy group. They are 
already being confronted with a major barrier with the Web site 
problems. And as you said earlier, ACA is much more than a Web 
site. I mean, we all know that they are going to see higher 
premiums, particularly in that age group. There has been a 
number of reports and studies that demonstrate that is going to 
be the case.
    Clearly, the penalty is much lower than the cost of the 
insurance. And knowing something about the behavior of this age 
group, I have real concerns that we are going to see some 
adverse selection.
    Ms. TAVENNER. Well, Congressman, I would remind you in this 
age group many of them will be eligible for tax credits. So 
that will also help with their premium costs. And also for 
those under the age of 30, there is an alternate catastrophic 
plan.
    Mr. BOUSTANY. I understand. But if the premiums go up, then 
that means the subsidies go up. Is that correct?
    Ms. TAVENNER. Well, the subsidies are based on your income.
    Mr. BOUSTANY. Right. But if your income is what it is, and 
your premiums are going up, and we know there is upward 
pressure on premiums, then subsidies go up.
    Ms. TAVENNER. But I will remind you what we saw in the 
premiums, which are locked and loaded for 2014, has actually 
been about 18 percent below what CBO estimates were for premium 
increases. So we have a good story to tell there.
    Mr. BOUSTANY. But we see other evidence going longer term 
that we are going to see upward pressure on premiums as a 
result of the construct of this law. I have spent 30 years in 
medicine. I understand what this is going to do. And I have 
very deep concerns about what we are going to see with premium 
costs. But as premium costs go up, subsidies go up. That means 
the burden on the taxpayer goes up. That means deficits go up.
    Ms. TAVENNER. So I will remind you that premiums were going 
up at double-digit increases prior to the Affordable Care Act. 
And what we are actually seeing is a moderation in premium 
increases for the last 3 years.
    Mr. BOUSTANY. That is a false dichotomy, I mean, because 
there are other solutions to getting premiums down and actually 
lowering costs. So I don't accept that as a complete answer on 
the cost of these premiums.
    Let me ask you this. Transparency is clearly very, very 
important. And will you or HHS or CMS, somebody in the 
administration provide information on the taxpayer's cost with 
regard to these subsidies for 2015 and beyond?
    Ms. TAVENNER. I am sure that part of our information in 
reports we produce will include that information to you, yes, 
at the time.
    Chairman CAMP. All right. Thank you.
    Mr. Larson.
    Mr. LARSON. Thank you very much, Mr. Chairman.
    I would like to associate myself with the remarks of Mr. 
Thompson and Mr. Neal, and focus on an area that I think this 
committee could become eminently involved in.
    First, I would like to point out what a success Connecticut 
has been. I want to commend Governor Malloy and Lieutenant 
Governor Wyman, who have headed that up with Kevin Counihan. 
Tremendous success, including more than a third of the people 
that have signed up for the program are under age 35. And so it 
demonstrates that when you are working together and 
cooperating, that indeed these things can work.
    And as Mr. Neal pointed out, the thing that is astonishing 
from a Democratic view, if Democrats were to have their way in 
health care we would have had Medicare for all or a single-
payer system. Instead, we opted for coming together and ending 
up with a program that was idea of the concept was the Heritage 
Foundation, piloted by a Republican governor in a Democratic 
State. And so we come up with a private sector initiative.
    Here is the deal. The deal is this: that if this committee 
were to approach this issue the same way we did tax reform and 
say the following, we are going to take the very best of the 
public health system, the very best that the public health 
system can offer, including the National Institute of Science, 
the National Institute of Health, the Center for Disease 
Control, everything that our public health systems within our 
State has brought together over these many years, and then do 
that in combination with the private sector so that we can take 
the entrepreneurial advantage that the private sector can bring 
to this remedy, and then take science and technology, most 
notably the genomic project that is currently going on that has 
untold benefits.
    What the American people want to see is to help them out, 
to solve their problem, to help them get better health care. 
They don't want to see this endless tastes great, less filling 
debate from the committee. I challenge the chairman, let's do 
what we did with tax reform. Let's break down into individual 
groups and solve this problem together so that we are taking 
the best of the public sector, the best of the private sector, 
and all that innovation, technology can bring to bear on 
changing the paradigm for the American citizen so it is their 
health and well-being that becomes the focus, not the ideology 
of either party, but the health and well-being of the American 
citizen.
    That is what this should be about. And we can do it. And by 
taking both sides of what both parties and both ideas can bring 
to this discussion, the best of the private sector, the best of 
the public sector, and everything that science and technology 
and innovation can provide.
    There is more than $800 billion annually in waste and 
inefficiency. This is the most inefficient economic system in 
the world. Can't we come together to solve that? Use this 
committee to lead the way and set the example for what regular 
order can provide by challenging everybody to sit down, as we 
have in tax reform, and come up with a solution for the 
American public, not this ongoing debate.
    Chairman CAMP. The time has expired.
    Mr. Roskam.
    Mr. ROSKAM. Thank you, Mr. Chairman.
    Administrator, thanks for your time today.
    So I have an independent recollection of driving around 
Chicagoland, I represent the western suburbs, and it was June 
of 2009. President Obama was in town giving the speech to the 
AMA. I knew I was going to be called on to make some comments 
afterwards. So I am listening to it on the radio. I am on 
Michigan Avenue, downtown Chicago, I am listening, I am 
listening, I am listening. And the President says this. It is a 
paragraph that you are familiar with, but I want to revisit it 
with you now in light of constituent contacts that I have had. 
He said this: ``I know that there are millions of Americans who 
are content with their health care coverage. They like their 
plan and they value their relationship with their doctor. That 
means that no matter how we reform health care, we will keep 
this promise: If you like your doctor, you will be able to keep 
your doctor, period.'' No parentheses, no exclamations, no 
asterisks, period.
    Continuing: ``If you like your health care plan, you will 
be able to keep your health care plan, period. No one will take 
it away no matter what. My view is that health care reform 
should be guided by a simple principle: Fix what is broken and 
build on what works.''
    That was a declarative statement by the President of the 
United States selling, in anticipation, the passage of the 
Affordable Care Act. That deeply resonated with a lot of folks. 
He repeated it, repeated it, repeated it. Made other claims, 
like it is going to save $2,500 on average per family and so 
forth.
    So here is my point. Diane Isser from Hoffman Estates is a 
57-year old breast cancer survivor. It was reasonable for her 
to assume, based on the plain language of the President, not 
subsequent parsing, but the plain language of the President, 
that she would get to keep her coverage. And here is her new 
reality. She gets the letter from Blue Cross Blue Shield that 
says that they are unable to offer that coverage. Her rate goes 
from 363 a month to 713 a month, almost doubling. Now, she had 
a preexisting condition, so this is not a question of whether 
her breast cancer was covered or not. She is being moved into a 
Gold plan, which presupposes that she had decent coverage from 
before.
    Can you understand the level of frustration and concern 
about what many Americans perceive to be a false claim from the 
administration? Not that it was somehow changed or now that, 
well, we have got this wonderful plan for your life that says 
we know better than you, we are going to tell you what kind of 
coverage you want. Diane knows exactly the type of coverage she 
wants. So that is one concern.
    The other concern is, you have alluded to it, is the Web 
site. I have got another constituent, Denise Banages, from Lake 
in the Hills, who is a professional in this arena and has spent 
countless hours advising clients. And, you know, the advice is 
take screen shots, protect yourself, and so forth.
    My time has expired. But can you understand at least the 
level of frustration based on the claim of the President of the 
United States that people were going to be able to keep what 
they had and it is not turning out to be true as they 
understood that statement?
    Ms. TAVENNER. I understand that for about 86 percent of 
America that had employer-sponsored insurance and they were 
satisfied with those plans and they still have those plans. 
What we were dealing with in the Affordable Care Act is the 
individual market where the constituent you talk about is 
lucky, she was able to have insurance. Many people were blocked 
out due to preexisting, due to other issues. And that is what 
we were trying to fix. That is what I understand.
    Chairman CAMP. All right.
    Mr. Blumenauer is recognized.
    Mr. BLUMENAUER. So if I ask a 3-minute question will the 
Administrator have a chance to answer also?
    Chairman CAMP. Give it a try and we will see.
    Mr. BLUMENAUER. Thank you, Mr. Chairman.
    I would like to just dive in a little bit to follow up on 
what my friend Peter was talking about, and, frankly, the 
sheriff who was acting like a district attorney with you a 
little while ago. Have we ever had the ability to force a 
doctor to stay in a particular plan? Is that sometimes beyond 
the control of the patient and the doctor in terms of networks?
    Ms. TAVENNER. That is correct. Doctors have always had to 
individually negotiate.
    Mr. BLUMENAUER. So we can have a framework, but you are not 
going to be able to force doctors to stay or insurance 
companies to keep them. They change all the time, don't they?
    Ms. TAVENNER. That is correct.
    Mr. BLUMENAUER. And this notion that somehow we would force 
insurance companies to never change policies. Haven't we seen a 
third to two-thirds of the individual market change in the 
course of a year for the typical patient?
    Ms. TAVENNER. Absolutely.
    Mr. BLUMENAUER. So it is not anything that my friend from 
the State of Washington, which has 7 million people, arguably 
at least a million households are either uninsured or in the 
individual market, that they would see several hundred thousand 
people every year who would have those individual policies 
change. Is that not true?
    Ms. TAVENNER. That is true. Prior to the Affordable Care 
Act, what they were assured of is they had to worry about were 
they going to lose their coverage, what was going to happen 
with premiums. And they were still going through a churn of at 
least 50 percent a year. What we have done is we have 
stabilized the premiums, we no longer allow denial for any 
preexisting, and we are creating a more competitive market. And 
Washington is a great example.
    Mr. BLUMENAUER. And many of these people who are subject to 
the churn, it is because they find out that they actually try 
and use the insurance----
    Ms. TAVENNER. That is right.
    Mr. BLUMENAUER [continuing]. And they find out, wait a 
minute, it is great insurance until you get sick, or until you 
bump up against artificially low caps, or having moving targets 
as insurance companies do deeper dives about eligibility. Isn't 
that part of the churn?
    Ms. TAVENNER. That is true.
    Mr. BLUMENAUER. Is that going to be possible anymore, that 
people will have limits and get thrown off, that people will be 
able to go back into the history and throw them off?
    Ms. TAVENNER. They will not. They will not be able.
    Mr. BLUMENAUER. Mr. Chairman, part of what is I find a 
little disconcerting is that people are in a never never world 
where they think that in the past we have been able to force 
insurance companies to continue to offer, that they have been 
able to force doctors to be in the networks. And this is 
entirely consistent with the intent of the Affordable Care Act, 
is to give them superior insurance without those problems. And 
I do think that we are not really talking about apples and 
oranges.
    Thank you, Mr. Chairman. I will yield back.
    Chairman CAMP. Thank you.
    Mr. Gerlach for 3 minutes.
    Mr. GERLACH. Thank you, Mr. Chairman.
    Thank you for testifying today, Ms. Tavenner.
    First, I want to go back to a question raised by 
Congressman Nunes, who was following up on a question by 
Chairman Camp about the release of the numbers as the total 
number of enrollees to date, and you said bottom line you are 
not going to release those numbers until mid-November. Then in 
response to Congressman Nunes' question, you specifically said 
we made a group decision not to do that, not to release them 
until mid-November. Who was part of that group to make that 
decision? What were the individuals that were part of that 
group's decision?
    Ms. TAVENNER. I think it was in response to the question 
was did the Secretary or the White House direct me. And the 
answer to that was no, this was a group decision. We actually 
sat down with the Secretary and talked about what would make 
sense in terms of when we would release.
    Mr. GERLACH. So who was the group. That is what I am 
asking. Individually, who made up that group?
    Ms. TAVENNER. These were different components within HHS, 
different operating divisions. And then obviously we had 
conversations with White House staff as well.
    Mr. GERLACH. Okay. And who was the White House staff you 
had conversations with?
    Ms. TAVENNER. This would be members of the Domestic Policy 
Council, it could have been members of the budget office.
    Mr. GERLACH. Who are their names? Do you recall?
    Ms. TAVENNER. No, I don't recall. These were different 
series of meetings where we had a discussion about this.
    Mr. GERLACH. Aware of any memos or email exchanges to that 
regard between the different component group members?
    Ms. TAVENNER. I am not sure, but I am happy to go back and 
take a look at that.
    Mr. GERLACH. Okay. If you can take a look at all of those 
emails and memos, and if you have those please share those with 
the committee if you would.
    Secondly, in your testimony you indicate that the problems 
that are being experienced with the Web site is based, quote, 
``Unfortunately, on a subset of contracts for HealthCare.gov 
that have not met expectations.'' Is it the contracts that have 
not met the expectations or is it the contractors implementing 
the contracts that have not met expectations?
    Ms. TAVENNER. I am not sure which quote you are referring 
to.
    Mr. GERLACH. It is on the bottom of page two of your 
testimony.
    Ms. TAVENNER. Okay. All right.
    Mr. GERLACH. Quote, ``Unfortunately, a subset of those 
contracts for HealthCare.gov have not met expectations.'' So is 
it the contracts that have not met expectations or was it the 
specifications of those contracts were not properly developed 
and properly executed or properly implemented? Or is it the 
contractors themselves that took a good contract and have not 
performed properly?
    Ms. TAVENNER. So I think that in the case of the FFM site 
is what I was referring to, and we have been working with the 
contractor. We have had some issues with timing of delivery.
    Mr. GERLACH. Who is that contractor?
    Ms. TAVENNER. That contractor is CGI.
    Mr. GERLACH. Okay. So it is the contractor in that instance 
that is not meeting expectations?
    Ms. TAVENNER. Yes. But we are working with them.
    Mr. GERLACH. Okay. Are there provisions in the contract 
with that company that if it fails to perform in any 
substantive way that it is to repay or refund back to the 
government for funds that you have allocated to it for the 
purpose of performance?
    Ms. TAVENNER. I can get you the details on that.
    Mr. GERLACH. Okay. There is also a tech surge underway.
    Chairman CAMP. I am afraid time has expired.
    Mr. Pascrell is recognized.
    Mr. PASCRELL. Thank you very much, Mr. Chairman.
    Despite our Democrats' opposition to Part D 10 years ago, 
we committed to making the best of the program. And because of 
all the changes that have occurred on the Part D prescription 
program, 90 percent of seniors right now are satisfied. And why 
are they satisfied? Well, in my district, before that vote, I 
made seniors know that I was going to vote no and oppose, and I 
told them the two reasons. The gap, the donut hole when you are 
paying for premiums and you are not getting any benefits. That 
was horrendous. And number two, an outside source was not 
sitting down and being the third party to negotiate the prices 
of prescription drugs.
    So it lost. We lost the policy fight. And what did we do? 
We went back to our districts and we told our seniors, although 
we voted no, we personally believe and will work with the Bush 
administration to make it work. That is what we did. And how 
many of you stood up to do that? None. Zero. Zero.
    Let's talk. Let's not water the wine here. Let's say it 
like it is. You refused to expand, many of these governors, 
Medicaid, they refused to set up State marketplaces, and 
leaving millions of dollars in outreach on the table and 
education funding. And what happens?
    Well, to those I say this, and to you I say this, who I 
deeply respect, here and off the floor of the committee and off 
the floor of the House: What are you going to do about the 
approximately 17 million children with preexisting conditions 
who can no longer be denied health insurance coverage? You want 
to go back? You want to say you are no longer covered any 
longer? You are going to tell the parents of those kids? Which 
one of you is going to stand up and tell the parents of those 
children the game is over, sorry, that was just a phase we were 
going through?
    Mr. GRIFFIN. Will the gentleman yield?
    Mr. PASCRELL. Yes, I will.
    Mr. GRIFFIN. I would just tell you that----
    Mr. PASCRELL. Where are you?
    Mr. GRIFFIN. Right here. You asked a question, I am going 
to answer it. It is a false choice to say it is Obamacare or 
nothing. There are numerous proposals, including the one that I 
am a cosponsor of that deals with preexisting conditions.
    Mr. PASCRELL. Let me take back the time, sir. Let me take 
the time back. Are you serious, what you just said? Are you 
really serious? After what we have gone through, after what we 
have gone through in the last 3\1/2\ years? You can sit there 
and say that you had a legitimate alternative after these 
years? We have gone through 44 votes, 48 votes now of you 
trying to dismantle this legislation. You call that 
cooperation? I don't. I don't call that cooperation.
    Mr. GRIFFIN. Will the gentleman yield? You are asking a 
question.
    Chairman CAMP. The gentleman's time has expired.
    Dr. Price is recognized.
    Mr. PRICE. Thank you, Mr. Chairman.
    Welcome, Madam Administrator. I appreciate your testimony 
today and the work that you are doing. I think the American 
people are looking in at this hearing and just shaking their 
heads. I spent over 20 years taking care of patients, and this 
is about patients. And what we on this side of the aisle want 
is the highest quality of care for all Americans, a system that 
is affordable and accessible and provides the greatest number 
of choices and continues innovation in our health care arena so 
that folks can have the highest quality of care.
    But our belief is firmly, and I think that it is playing 
out now, is that the ACA violates every one of those 
principles. That is why we oppose this policy.
    There is not enough time, Mr. Chairman, to correct all of 
the record that has been stated, but here is an article from 
the New York Post I would like to insert into the record. 
Elderly New Yorkers are in a panic after getting notices that 
insurance companies are booting their doctors from the program 
as a result of the shifting landscape under Obamacare. Quote, 
``UnitedHealthcare told Dr. Leibowitz that because of 
`significant changes and pressures in the health care 
environment' he would be getting the ax on January 1.'' Not 
that they were trying to force him into it, but that he would 
be getting kicked off the program.
    Forcing insurance companies to change their plan? You bet 
they are. Here is from CareFirst Maryland. An individual sent 
me this letter. Quote, ``The ACA requires you to pick a new 
plan to maintain coverage because your current plan will cease 
to exist at the time of your renewal through the ACA.''
    Chairman CAMP. Without objection, the letters will be in 
the record.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ___________
                                
    Mr. PRICE. Thank you, Mr. Chairman.
    I have some specific questions I would like to have you 
answer. When did CMS become aware of the problems with the Web 
site?
    Ms. TAVENNER. I think CMS became aware of the problems 
within the first week, when we had the volume surge.
    Mr. PRICE. CMS didn't have a clue that there was going to 
be a problem on October 1, when the Web site went live. Is that 
correct?
    Ms. TAVENNER. The problems that we saw in the first week we 
attributed to volume. Once the volume started to back down----
    Mr. PRICE. How about before October 1, was there any sense 
at all that there were going to be problems with the Web site?
    Ms. TAVENNER. No. There are always going to be issues with 
a new Web site, what I would call the customary glitches that 
you see, but no, not this.
    Mr. PRICE. Did you have any meetings with the White House 
prior to the rollout date on October 1 to inform them of any 
problem that you anticipated?
    Ms. TAVENNER. No, not of any problems I anticipated. I 
talked earlier about programs that we decided to delay, the 
SHOP, the Spanish.
    Mr. PRICE. Have you been involved with any conversations 
with Secretary Sebelius or the administration about delaying 
the individual mandate?
    Ms. TAVENNER. About delaying the individual mandate? No. We 
have discussed the individual mandate at some degree, but not 
about delaying it.
    Mr. PRICE. There was a hearing last week in Energy and 
Commerce. CGI, one of the contractors, said that there is 
hidden source code on the site that says applicants have no 
reasonable expectation of privacy and that this was due to a 
decision that CMS made. Did you all make that decision?
    Ms. TAVENNER. I will have to get back to you on that. I am 
not sure what they were talking about in that comment.
    Mr. PRICE. Thank you. My time has expired.
    Chairman CAMP. Thank you.
    Mr. Crowley.
    Mr. CROWLEY. Thank you, Mr. Chairman.
    Ms. Tavenner, I think you have noticed, and I have lost 
count at 22, I think you were asked 22 times when the 
information will be available. Just to clarify for the last 
time, that information will be available sometime at the end of 
November. Is that correct?
    Ms. TAVENNER. That is what I said, mid-November, many 
times.
    Mr. CROWLEY. I want to make this clear to all my 
colleagues. The information, so we can be clear, will be 
available at the end of November. Is that correct?
    Ms. TAVENNER. Mid-November.
    Mr. CROWLEY. Mid-November. I am sorry. I was a little 
early. Mid-November. I had to get it straight for myself as 
well. I appreciate that.
    Now, you understand that this is from the same party that 
attempted to repeal the Affordable Care Act over 40 times? You 
understand that, don't you?
    Ms. TAVENNER. I do understand that.
    Mr. CROWLEY. So you understand that repetition is a part of 
the rote here, that the more you ask it, the more you try to 
repeal things, maybe you feel better about it, but I wanted to 
be cognizant of that.
    Ms. Tavenner, you mentioned that over 700,000 people have 
completed the application that then allows them to shop and 
compare plans with their exact prices and available tax 
credits. So does that show the system is working even with the 
problems that you have already started addressing?
    Ms. TAVENNER. Yes, sir. The system is working. We would 
like it to work better, and that is what we have committed to 
do by the end of November.
    Mr. CROWLEY. So really the key measures right now are the 
interest in the site is so impressive in terms of how many 
people are beginning to take the first steps of the process to 
for the first time afford insurance for themselves in this 
country. Is that correct?
    Ms. TAVENNER. That is correct.
    Mr. CROWLEY. Ms. Tavenner, you are aware that every Member 
on that side of the aisle, the Republican side of the aisle, to 
a person is opposed to the Affordable Care Act?
    Ms. TAVENNER. Yes, sir.
    Mr. CROWLEY. You don't have to answer the question. I am 
being a little rhetorical.
    Do you understand that they don't want you to succeed? You 
don't have to answer that question. They shut down the 
government of the United States of America in an attempt to 
repeal the Affordable Care Act. It doesn't pass the laugh test 
that they somehow care about getting this right, or you in your 
performance as Administrator, of getting this right and making 
sure that this health care law is enacted properly.
    We Democrats are looking for problems to fix. My Republican 
colleagues, when it comes to this issue of the Affordable Care 
Act, they are looking for problems to exploit.
    We can fix a broken Web site. What we cannot fix are broken 
ideas and a broken agenda, and that is what they have offered 
to the American people. I am not asking you to comment. I am 
just making a rhetorical statement and questions to you. But it 
is very sad. They have nothing to offer, and therefore they 
will attack and tear down. It is much easier to tear down the 
building than to build a building up. And I appreciate the work 
that you are doing to get this right, to make it work for the 
American people.
    And with that, I yield back the balance of my time.
    Chairman CAMP. All right. Thank you.
    Mr. Buchanan and then I will go to Mr. Smith. So Mr. 
Buchanan is recognized.
    Mr. BUCHANAN. Thank you, Mr. Chairman.
    And welcome, Madam Administrator.
    Last week in Florida--I represent a part of Florida, but 
obviously looking at Florida as the only member of the Ways and 
Means there--we had over 300,000 people have been notified, 
some cancellations, some adjustments, they claim, to their 
thing. That is one carrier, Blue Cross Blue Shield, so it is 
probably hundreds of thousands more than that. And it seems it 
is this one group in general, not just in Florida, but across 
the country got reported yesterday, I think, which are 
independent contractors. You might look at a group like 
realtors, for example, that are self-employed, that they are 
the most at risk in terms of their insurance or trying to find 
insurance. They are getting the cancellations.
    And then a part of that report, as you probably know or 
read, is that they have known about it for 3 years, the 
administration has known about it. Are they going to come 
forward and just express the concern about this one category, I 
think it is 16 million people, up to 80 percent are at risk 
that might lose their insurance?
    Ms. TAVENNER. I am not sure what question you are asking.
    Mr. BUCHANAN. I am just talking about people that are 
independent contractors, like realtors, one segment that are 
getting notices from Blue Cross Blue Shield.
    Ms. TAVENNER. Right.
    Mr. BUCHANAN. One of the gentleman mentioned from 
Washington, but in Florida last week we got 300,000 notices 
from Blue Cross Blue Shield. It seems like it is concentrated 
on the small business person, you know, someone that is a sole 
proprietor or an independent contractor.
    Ms. TAVENNER. I think the individuals who are getting these 
notices tend to be small business or individually insured. But 
I am not aware of realtors or any one group, but I can check 
into that.
    Mr. BUCHANAN. The other thing I wanted to mention, you said 
that you thought in the last couple, 3 years that rates have 
moderated. I can just tell you they have been going up 20, 25 
percent in my district, in the last 3 years on average. They 
have got them down somewhat, they have made some adjustments.
    The other point I just wanted to mention, I think you said, 
I am trying to quote what you said, you thought the system is 
working? Did you say that, that you thought the system, the 
ACA, is working?
    Ms. TAVENNER. I think we have seen a lot of improvements in 
the ACA, yes, sir.
    Mr. BUCHANAN. Let me tell you, it is a public relations 
nightmare. I hope that you honestly don't feel that you think 
the system is working. This is just an incredibly bad rollout. 
There is a lot that needs to be done. I can't imagine how you 
could think that the system is working.
    And my concern is, frankly, with such bad experience, so 
many people going to the site, trying to get on and get 
insurance, why would they want to get involved in a product, if 
they have had such a bad experience up front, I have been in 
business 30 years, why would you want to get involved in a 
company or a product that in the next 2 or 3 years, or you have 
a concern or an issue, that you might get the same treatment 
where you can't get ahold of anybody?
    Ms. TAVENNER. Well, I think if you talk to individuals who 
have successfully enrolled, they will tell you they are quite 
satisfied with what they were able to get in terms of pricing 
and product.
    Mr. BUCHANAN. My sense, 70, 80 percent of people have not 
been able to get through. And I don't know how they can feel 
good about moving forward with health care if they can't get 
even get online to do business.
    Chairman CAMP. All right. Mr. Smith is recognized.
    Mr. SMITH. Thank you, Mr. Chairman.
    And thank you to Administrator Tavenner for sharing your 
insights here today. And I have heard from many citizens about 
this transition, and they are seeing higher premiums, higher 
deductibles, higher copays, and yet we hear that you are saying 
the premiums are actually going down.
    Could you assure some of these Americans that are seeing 
higher premiums, virtually less coverage than they were 
previously experiencing, could you assure them that their 
premiums will be going down over time?
    Ms. TAVENNER. So I can tell you that what I said is that 
compared to CBO estimates the premiums had actually come in 
about 18 percent less than CBO estimates. The other comment 
that I made is, if you look at large group insurance, that what 
we are seeing are some of the lowest trends in terms of premium 
increases, somewhere between 4 and 5 percent. So I can tell you 
based on trends, yes, it is coming down.
    Mr. SMITH. Now, I have also heard from some citizens who 
went to the Web site with employer-provided coverage for that 
employee, but that employee had a family and he wanted to 
investigate in terms of whether or not in qualifying the 
exchange for the subsidy, and was virtually unable to do so.
    Ms. TAVENNER. So what we have encouraged, there are some 
complicated families who are always going to need assistance, 
and that is why we have encouraged the use of the call center. 
There are some folks that when they complete the application 
they are going to have some difficult question and they are 
going to need to work with an in-person assistant. And so that 
is why the call center exists, and it is available 24/7, and a 
lot of folks are using it.
    Mr. SMITH. The tax credit that you mentioned, basically 
suggesting that it is a remedy for some of the increased costs 
through the ACA, is that accurate?
    Ms. TAVENNER. I didn't say it was an increased remedy. I 
said it is assistance to those individuals at lower income 
levels. If you talk to people about why they don't have health 
insurance, there are two reasons: they can't afford it and they 
are embarrassed to admit that they don't have it. So we are 
trying to help both. We are trying to get information out there 
that it is available to everyone and we are trying to help them 
with the cost.
    Mr. SMITH. On the dates that you established, the mid-
November for the numbers of participants----
    Ms. TAVENNER. Yes.
    Mr. SMITH [continuing]. Reaching coverage through the Web 
site, and then also November 30th for other problems being 
rectified----
    Ms. TAVENNER. Yes.
    Mr. SMITH [continuing]. How did you arrive at those dates?
    Ms. TAVENNER. So we have said all along that we would have 
information available on enrollment and other metrics after the 
end of the first month. So the first month closes obviously 
this Thursday, so we will work with States to put together 
metrics that will be available in mid-November. That is 
something we have talked about for months internally. That was 
an operations decision.
    And then the second question, how we came about identifying 
the problems in the system and deciding the end of November is 
actually sitting down and looking at the problems, deciding how 
long it would take us to correct them, how long it would take 
for us to add the other issues, which are the issues of SHOP, 
Spanish, et cetera, and that is how we came up with the end of 
November. It wasn't just us. We also worked with the technical 
experts. That is part of the tech surge that you have read 
about.
    Mr. SMITH. All right. Thank you.
    Chairman CAMP. Ms. Schwartz is recognized.
    Ms. SCHWARTZ. Thank you.
    And thank you for this opportunity. And thank you for being 
here. We didn't talk about it too much, but a bit this morning, 
but really the purpose of this hearing is to really acknowledge 
the difficulties and really a deeply troubling initial rollout 
of the Web site that is supposed to enable all of our 
constituents and Americans to access health care coverage in 
these health care marketplaces. And the fact is, and you 
acknowledged some of this, there have been inexcusable and 
unacceptable rollout of the launch of this marketplace. And as 
you know, millions of Americans, and they are in all of our 
districts, are anxious to obtain the information on the options 
for affordable coverage with the consumer protections that you 
have pointed out.
    We saw this interest when millions of Americans went online 
on 1 day, October 1, 2013. And the fact is that the 
administration really failed these Americans. They really had 
an experience they should not have had. Americans failed to be 
able to access the information on these options and to be able 
to enroll the way they expected to and hoped for.
    The administration has failed to properly test the Web 
site, at least that is the way it has been reported, failed to 
take action to recognize and fix these problems along the way. 
And you did in the beginning acknowledge that this initial 
experience was not a positive one and essentially apologized. 
So I appreciate that, and I think so do they.
    But you also have to acknowledge that that initial 
experience has actually done some damage to Americans' 
confidence in this Web site, in the marketplace, and even 
potentially the options that they would have available to get 
health coverage. So this is not only an opportunity for 
millions of uninsured and underinsured Americans to get 
affordable, meaningful health coverage, but it is also an 
obligation under law to make sure that this Web site works, 
because that is the way they are going to find out their 
options and to be able to enroll.
    So, you know, going forward, there can be just no more 
excuses. We need to hear from you that there is actually a path 
forward. And you can be as specific and explicit as you 
possibly can be with us and with the public to help regain our 
confidence and the public's confidence in the ability of the 
administration and these subcontractors and contractors to get 
this right.
    We have heard reports of a lack of coordination in 
implementing these different contracts. Can you speak to--and, 
again, if you could be specific about this--because I want to 
be able to go home and to be able to say this is going to work. 
And it has to work, because that is the way Americans will 
access this information and be able to sign up. And we all know 
those people who are underinsured, uninsured, and they are 
looking for these options.
    So you need to give us some more explicit information about 
how you are going to better implement and better coordinate 
these contractors to get this right for the American people.
    Ms. TAVENNER. And that is the information in my opening 
statement. We obviously brought on QSSI to serve in the general 
contractor role. We at CMS have been doing that, which is not 
unique. CMS tends to oversee most programs. But because of what 
I consider the failures in the initial rollout, we felt we 
needed to bring on additional expertise, so we have brought 
that on in terms of QSSI, which will be accountable to me. 
Obviously I am accountable for this. So I think that is one of 
the big things.
    The second thing is we have identified two what I will call 
category issues. One had to do with system performance and 
speed. So these were actually people who could complete 
applications and do the work, yet the system was just slow. And 
we are an impatient society. So we have added capacity and 
other things to deal with that. And persistent performance. And 
I have some metrics there.
    But on the other side are what I will call the defects, 
like the sticking in the application, where we are actually 
going through punch lists. And we are starting, and I hope you 
have noticed this, to do daily tech blogs, daily tech updates 
with the press to try to be more transparent about the problems 
and how we are fixing them so that you see continuous 
improvement.
    Ms. SCHWARTZ. Which we appreciate.
    Chairman CAMP. All right. And time has expired, so you will 
have to supplement anything further.
    Ms. SCHWARTZ. It will be helpful to have that. Thank you.
    Chairman CAMP. Thank you.
    Mr. Paulsen.
    Mr. PAULSEN. Thank you, Mr. Chairman.
    Ms. Tavenner, thanks for being. I know you have got a tough 
job.
    You know, before October I think much of the public was 
looking at the whole debate about Obamacare or the Affordable 
Care Act as some big political heated argument up on Capitol 
Hill, and, you know, many independent analysts for a long time, 
many years have been predicting that there are actually going 
to be higher premiums, these cancellations were going to be 
coming, you weren't going to be able to keep your doctor or 
your health insurance even though that was the promise that was 
laid out by the President in his State of the Union speech a 
long time ago.
    And now these are being confirmed from our constituents. I 
mean, directly from our constituents we are hearing these 
stories about these challenges and their own expenses. And I 
look at Tricia from Bloomington, who contacted me, and she says 
her rates are going up 30 percent in January, and she has been 
looking at the exchange options and the available plans, but 
they are even more expensive. I have also heard from Susan and 
Roger who are in Chanhassen. They like the plan they are on, 
they have been on it for a few years, the rates have been going 
on previously, but now they are going to go up another 20 
percent. And the insurance company notes that a lot of that is 
due to the regulations associated with the Affordable Care Act. 
And they have looked at plans on the exchange as well, and they 
are more expensive, it is not the coverage they want. And they 
also have concerns about keeping their information private. And 
they don't qualify for the subsidies that are offered as well.
    But let me ask this question, because I want to better 
understand how the administration came up with the November 30 
date or deadline, because that is the new date, the October 1 
has been moved to November 30. Jeff Zients has been hired now 
as kind of leading the effort. He said he has hired a new 
general contractor, they have a punch list of things to get 
done. So they have got milestones, testing dates, specific 
projects that need to get done.
    Can you tell us a little bit more about what the 
administration did to lead to the conclusion that the exchanges 
now would be ready to go on November 30 and can you provide a 
list of the punch list items to the committee?
    Ms. TAVENNER. So, yes, I can provide a punch list and some 
of the work that we are doing, that is not a problem, and I can 
give regular updates to the committee.
    But how we came up with the November 30 date is we actually 
pulled in a team of external experts to take a look at the 
system, look at the problems, say, is it fixable and how long 
does it take? So that is the process. So you will see 
continuous improvement week over week, and we can give you some 
of those milestones.
    Mr. PAULSEN. Okay. So for 3 years we have been preparing 
for October 1. Now we have got 2 months going into November 30. 
How do you know the schedule is going to be kept on November 
30, and what happens if you miss that date? What happens if you 
miss November 30?
    Ms. TAVENNER. The system is working. It is just not working 
as smoothly or as consistently as we want. So the system is 
built. The hub is working. We were able to correct the create 
account issue, which was a big sticking point in the beginning, 
and so now we are doing the rest of the fixes and improving 
system performance.
    Mr. PAULSEN. If you could provide a punch list to the 
committee, I think that would be very helpful as we move 
forward to the November 30 deadline.
    I yield back, Mr. Chairman.
    Chairman CAMP. Mr. Marchant.
    Mr. MARCHANT. We have reached out to our constituents to 
find out what they are experiencing trying to comply with the 
law. These are people that recognize it is the law, they are 
trying to comply, and they are frustrated.
    The first group basically is getting on the Web site, 
sometimes it is taking hours, sometimes it is taking several 
days, but they are finally getting on there, and they are 
finding that they can get care, but that their premiums are 
raised significantly, sometimes double. That is the first group 
that we are hearing from.
    The second group is a group that is receiving a 
cancellation from their insurance company. That prompts them to 
begin to think about it. They begin to think about complying 
with the law. These are not rebellious people. These are people 
that really sincerely are trying to comply with the law. And 
they are finding out that they can't keep their insurance 
company, they can't keep their doctor, and they genuinely 
believed the President when he said that they could. And these 
are people that now are very, very frustrated. They are going 
through this process. They are very angry, to begin with. Then 
they are very frustrated. And then they get into a very fearful 
state, because they are realizing that they have been told that 
the Web site will be up and running by November the 30th, but 
they are also confusing--maybe they are confusing the date that 
they must be signed up by December the 15th to have their 
policy go into effect on January the 1st. And most of them are 
experiencing some fear that they are going to genuinely have a 
gap in their service; regardless of the prices and the 
conditions, that they are going to have a gap in their service. 
And I think that is something you should really be concerned 
about, that there is going to be a huge gap.
    The last group that I am hearing from, in Texas, we have 
worked for years to come up with a high risk pool, and we have 
a group of people that are not on Medicare, they are not on 
Medicaid, they are uninsurable, they have chronic illnesses, 
and they are very vulnerable.
    Is there some effort being made by your organization to 
reach out specifically to those State high risk pools and give 
them some additional assistance and pay some close attention to 
that group? Because that group in many instances is the most 
vulnerable of any group in America.
    Ms. TAVENNER. Yes. And let me remind you, this is the group 
that in previous years, before the Affordable Care Act, would 
have had no options, and now they are insurable. And these are 
folks that we are reaching out to. We are running the high risk 
pools in many States, but we also coordinate that with States 
who are running their own to help them transfer into----
    Mr. MARCHANT. But in my----
    Chairman CAMP. All right. Time has expired.
    Mr. Davis.
    Mr. DAVIS. Thank you. Thank you very much, Mr. Chairman.
    Thank you very much for being here and answering our 
questions.
    In Illinois, quite frankly, the launch has gone extremely 
well. As of October the 21st, almost 300,000 unique visitors 
had gone to get covered at Illinois.gov, with 132,344 visitors 
participating in the plan comparison screener on the Web site. 
Over 8,000 people called the Get Covered call center since its 
launch. The Medicaid expansion has been a huge success, as 
evidenced by approximately 100,000 people signing up for 
CountyCare prior to the October 1 launch date. This is a 
special waiver through which residents of Cook County can 
enroll early and start receiving health coverage in 2013 
through Cook County facilities. In January, they will be rolled 
over into the regular Medicaid program.
    Another innovative program in Illinois was an express 
enrollment process for SNAP recipients. In August, the State of 
Illinois sent a notice to about 123,000 SNAP recipients, that 
is, households with single adults, not disabled, offering them 
an option for express enrollment in the newly eligible group by 
signing and returning a form. As of October the 21st, the State 
had received about 46,000 of those forms back and about 26,000 
people have been enrolled, and they are in the process of 
enrolling the rest.
    Finally, the State has launched a new smart online 
application system called ABE.Illinois.gov, Application for 
Benefit Eligibility. The new site was launched October the 1st, 
and the Web site has been functioning smoothly. The most recent 
data shows that 47,766 accounts have been created on ABE, and 
28,729 applications have been submitted for processing.
    And we looked at how our newspapers have expressed their 
analysis of what was taking place. The Northwest Herald 
reported that through only 2 days, Get Covered Illinois had 
more than 230,000 visitors and nearly 800,000 page views with 
more than 5,000 applications. The Associated Press stated that 
Chicago hair stylist and bartender Mike Leon called the Federal 
call center after he tried the Federal Web site 5 days in a row 
and couldn't get it to work. The call center staff helped him, 
and he got through in 2 minutes. So our experiences have been 
perhaps different.
    I thank you very much and yield back.
    Chairman CAMP. All right. Thank you.
    Ms. Black is recognized.
    Mrs. BLACK. Thank you, Mr. Chairman.
    And thank you, Ms. Tavenner, for being here today.
    I want to go back to what Dr. Price said. This is really is 
about patients. And as a caregiver for over 40 years, I 
certainly know and have heard from my patients over the years 
about preexisting conditions. And I do think that we probably 
could have fixed that without having a total government 
takeover, as we are seeing here. It is not about politics, it 
is about patients.
    And I want to go to something from my State. Since the 
October 1 launch date, I have received overwhelming number of 
stories from my constituents with concerns about the health 
care law. In fact, in my own hometown newspaper, The 
Tennessean, they reported that more than 28,000 Tennesseans are 
now losing access to the State-sponsored insurance program, 
which covered those with preexisting conditions, seniors, 
children, and small businesses. And one small business owner, 
Greg, from my district in Fairfield Glade, shared this story 
with me, and I want to share it with the committee: Diane, I 
operate a small painting business, and was very happy with the 
Cover Tennessee program for small businesses and their 
employees. It had a small copay and covered up to $25,000 each 
year. It covered 12 doctors visits and an annual physical at a 
reasonable cost. And this program is being cancelled effective 
January 2014 because it does not meet the minimum requirements 
of Obamacare. This directly contradicts the promise made by 
President Obama that we could keep our existing program.
    They had affordable health care that they liked, but they 
didn't get to keep that. And I ask, is this right or is this 
just for this group of people? These 28,000 citizens of 
Tennessee are now forced to find new coverage plans on the 
health care Web site that doesn't work. So I think when we talk 
about fairness and justice, we have got to remember, there are 
people out there that this is not fair and this is not just 
for.
    But let me turn to another piece, and that is the 
implementation. We understand that the contractors who made the 
Web site did their own unit testing, but CMS was responsible 
for the end-to-end testing, or the system's integrated testing, 
making sure that each unit worked properly with the next unit. 
Now, that testing failed. And every contractor has said that 
CMS made that decision to move forward with the launching of 
the Web site. And you claim that you didn't know that there 
were surge problems with the Web site. But CMS is the project 
manager on this and CMS called the shots. So either there was 
incompetent management on your part or CMS' part, those that 
you work with, or you ignored those fundamental concepts that 
were taken into account when the Web site of this complexity 
and size was built.
    I want to know why if sufficient systems integrated testing 
was not conducted and you made the decision to move forward 
with the Web site. So was there a systems integration testing 
that was actually done?
    Ms. TAVENNER. So the testing was actually done. We started 
testing almost immediately. It was kind of continuous testing. 
I think what you are asking is did we do the testing across the 
hub and all the agencies----
    Mrs. BLACK. That is right.
    Ms. TAVENNER [continuing]. And the answer to that is yes. 
And so that was done. And then the question inside the FFM, did 
we do end-to-end testing in the FFM, and the answer to that is 
yes, that was done.
    Mrs. BLACK. Okay. So those tests were done, stress tests, 
load tests, how you accounted for and tested for peak hours?
    Ms. TAVENNER. Yes. So stress testing and load testing were 
done. In retrospect, the volume was we were projecting about 
three times the volume that we ever saw on the Medicare Part D 
experience, because we were dealing with a much smaller 
population. So in the first few hours of the site it had 
probably five times the volume that we ever projected. So in 
retrospect, we could have done more about load testing.
    Mrs. BLACK. Mr. Chairman, I want to know if we can get a 
copy of those tests so that we can actually see what was done.
    Chairman CAMP. If you can make those results available to 
the committee, we would appreciate it.
    Ms. TAVENNER. [Nonverbal response.]
    Mrs. BLACK. Thank you.
    Chairman CAMP. Thank you.
    And Mr. Young is recognized.
    Mr. YOUNG. Thank you, Mr. Chairman.
    And thanks so much for being here, Ms. Tavenner.
    Ms. Tavenner, as a former project manager and management 
consultant, I am perplexed as to the genesis of some of these 
problems with respect to the Web site and the broader rollout, 
and so I would like to explore with you maybe what the problems 
were.
    Let me step back and talk about the issue of openness and 
transparency. It was CBS News that last week reported that as 
we went into the summer of 2012 there were certain key 
regulations that contractors were waiting on, they had to be 
issued in order for them to continue to do their work, put 
forward requirements for their IT systems and put together 
HealthCare.gov. Could we put up a slide, please, to illustrate 
some of the regulatory issuance pattern?
    [Slide]
    Mr. YOUNG. We see that over the couple of years preceding 
the summer of 2012, we had 109 proposed regulations put forward 
by HHS. Then starting in the summer before the Presidential 
election we had zero regulations, all the way through the 
election. And since that time period we have seen 60 
regulations put forward by HHS.
    So my question to you, Ms. Tavenner, is that--and CBS News 
did indicate that some of the rules were ready to go back in 
June or July, according to one insider that they quoted in 
their report--so why did HHS stop issuing regulations, as the 
person on the inside, the so-called quarterback of this Web 
site?
    Ms. TAVENNER. So the regulation process, I don't know that 
at any point we stopped issuing regulations. As you can see, it 
has been a continuous process. The regulations, we were 
basically----
    Mr. YOUNG. But there was a gap you see right up there.
    Ms. TAVENNER. I do see that gap.
    Mr. YOUNG. How do account for that?
    Ms. TAVENNER. That is like a 2-month gap. And I don't know 
that that would be unusual. If we were to go back, and I am 
happy to go back and map the last 4 years, we have probably had 
2-month gaps at other intervals.
    Mr. YOUNG. So you think CBS News missed that?
    Ms. TAVENNER. No. I don't know what CBS News did. I am just 
telling you. We have had a continuous regulatory process going 
on. We have worked with the public. There is obviously a lot of 
back and forth between us and OMB in the regulation process. It 
is not unusual for a reg to take 2 months, 4 months, or longer.
    Mr. YOUNG. So you can assure us that partisan politics 
played absolutely no role in that?
    Ms. TAVENNER. I think, again, the regulatory process was 
continuous. At no point were we not either working on white 
papers, proposed regs----
    Mr. YOUNG. Right.
    Ms. TAVENNER [continuing]. Just getting the work done.
    Mr. YOUNG. As you know, as you have heard here today, there 
are real consequences to our constituents for the failures and 
shortcomings of this Web site. You have acknowledged that.
    Ms. TAVENNER. Let me talk to you about the Web site.
    Mr. YOUNG. Well, I have got limited time, so I am going to 
move on.
    Ms. TAVENNER. Well, I thought you wanted me to explain the 
problems with the Web site.
    Mr. YOUNG. One of my constituents----
    Ms. TAVENNER. Do you want me to explain the problems with 
the Web site?
    Mr. YOUNG. Submit supplemental material.
    Ms. TAVENNER. First of all, I would just say it is not a 
Web site, it is an insurance program. Okay?
    Mr. YOUNG. Okay.
    Ms. TAVENNER. And sometimes I think we think it is like a 
Web site.
    Mr. YOUNG. Right.
    Ms. TAVENNER. Web site just, like, looks at things.
    Mr. YOUNG. Right.
    Ms. TAVENNER. This is a complicated program tied to 34 
States, including very individualized Medicaid programs. People 
need to understand.
    Mr. YOUNG. Thank you, Ms. Tavenner. I would like to go back 
to HealthCare.gov, which is the Web site associated with 
signing up for required government-sanctioned health care. And 
Marvin, one of my constituents, writes on behalf of his wife, 
who was told by her insurer that due to health care reform, 
effective 1/1/14, the policy in the name of said citizen has 
been or will be terminated as of January 1, 2014.
    When can she sign up for her health care, Ms. Tavenner?
    Ms. TAVENNER. And does it go on to talk about other 
policies or just says she is cancelled and that is it?
    Mr. YOUNG. It goes on to say she is cancelled.
    Ms. TAVENNER. She is eligible and she can sign up for a new 
plan----
    Mr. YOUNG. She needs to sign up through the Web site.
    Ms. TAVENNER. She can sign up through the Web site or she 
can go to that individual issuer.
    Chairman CAMP. All right. Time has expired.
    Mr. Becerra.
    Mr. BECERRA. Thank you, Mr. Chairman.
    Ms. Tavenner, thank you very much. Appreciate you being 
here. And I think it has become very clear, and I hope that in 
all the hearings that take place further that we understand 
that we have to work together, because it is unacceptable to 
have an important part of the health insurance program, this 
Web site, not work the way it should.
    In fact, let me give you a quick example. There is a 
gentleman from Los Angeles, 34-year-old male, Andrew Stryker, 
and he had been reported in a number of press reports. He 
waited 3 hours to try to get on the Web site and finally had a 
chance to apply, and he says that that was tough. The good news 
for Mr. Stryker is that he is saving $6,000 as a result of 
being able to apply for the plan.
    So it is unacceptable for anyone to have to wait even 3 
hours. And even though he says that he would have waited all 
day given the result he got, what we want is for everyone to 
experience the $6,000 savings, maybe not that much, maybe more, 
but we want them to experience savings and to finally have the 
health security that you, every single Member on this committee 
has when it comes to health care. We don't have to worry about 
going bankrupt if we have to take our child to the doctor or to 
the hospital. And that is what Andrew Stryker now will have. 
And so let's fix this Web site. Let's not fixate on the Web 
site, let's fix the Web site.
    Now, if I can have, I will put on the screen the 
application process.
    [Slide]
    Mr. BECERRA. Today if you apply for the Affordable Care Act 
insurance, you have essentially three pages, and the third page 
is really more a signature page than anything else, to apply to 
get onto a health insurance policy, a health insurance plan.
    If we can have the next slide.
    [Slide]
    Mr. BECERRA. This is what the process was before the 
Affordable Care Act. You had some 12, 13 pages that you would 
have to fill out, many of them asking all sorts of very 
personal questions, very deep medical probing that was done, 
from strep throat, allergies, if you have ever suffered that, 
acne, all the way of course to whether you had cancer, heart 
disease. You could even be asked if you had learning 
disabilities.
    Now, can you explain why it is that all of a sudden we can 
go from a 13-or-so-page application that really probes into 
your personal life to one that is only three pages long?
    Ms. TAVENNER. I think as you are well aware, thanks to the 
changes in the Affordable Care Act, there is no longer the 
preexisting denial, everyone is entitled to insurance, which 
was part of the goal.
    The other thing that I will say is people may talk about 
the Affordable Care Act, or Obamacare, but once you get through 
that and you actually talk to folks about what is going on for 
them, if they had a child with a preexisting condition, most of 
them had issues with insurance, they had to go through this 
complicated process, they like what they are getting now.
    Mr. BECERRA. Yeah. So no longer will I get asked if I have 
heart disease or acne. I can apply and I won't have to worry 
about what my personal lifestyle is, I will be able to get 
insurance. And this 13-page application is now history for all 
those folks who go ahead and apply through the individual 
insurance market. So what I hope they will do is, again, fix 
the Web site so we can get to the process of giving folks like 
Andrew Stryker a $6,000 saving.
    Chairman CAMP. All right.
    Mr. BECERRA. Thank you very much. I yield back.
    Chairman CAMP. Mr. Griffin and then Mr. Schock.
    Mr. GRIFFIN. Thank you, Mr. Chairman.
    Thank you so much for being here. I have heard a lot of 
good things about your work from Leader Cantor, Eric Cantor. So 
thank you for being here, and I wish you well.
    I first wanted to say that as I tried to indicate earlier, 
it is really a false choice to say it is Obamacare or all the 
things that were never fixed in the health care world have to 
continue. There are many different options in between there. I 
have signed on to legislation that would also deal with 
preexisting conditions.
    So I just want to make clear to the public, to imply that 
you have to take all of what Obamacare delivers to get to 
address preexisting conditions or you get none of that 
addressed, that is just not true. And we can have that debate.
    I have heard from a lot of Arkansans. I want to read a 
message I got via Web site from a constituent. Her name is 
Jennifer in Little Rock. She says, quote, ``I am an Arkansas 
State employee, government worker. We received a newsletter 
from the Employee Benefits Division during open enrollment. Our 
insurance covers less now and costs more. It says, `These 
changes were made to more closely align the plans with the 
Affordable Care Act.' '' And in another sentence, quote, 
``Because of this, the value of the plans were lowered to be 
more in line with the law,'' end quote. ``I am quite disgusted. 
Just because the Federal Government is starting a health 
insurance marketplace doesn't mean that my coverage needs to 
change, but it has, and it has changed for the worse. If you 
need a copy of this newsletter, please let me know. Thank you 
for working on this problem.'' I have a copy of the newsletter 
here.
    So there are a lot of people that tell that story, and I 
have pages of it. Yes, there are people that are getting 
covered because of preexisting conditions. My point is, you 
don't have to do it this way. And that is why a lot of us 
continue to have a problem with the law. Yes, we have voted 43 
times or so, but what the talking points don't tell you is 
seven of those votes became law because the President agreed to 
those things. So the idea that we have had the same exact vote 
44 times is talking point nonsense.
    But I guess what I would ask you is, are these increased 
premiums and increased copays, is that just the cost of 
providing more access to health care? What do I say to people 
who ask, why am I paying more? Do I just tell them, hey, that 
is a tax? We didn't call it a tax, but that is a tax you got to 
pay so that more folks have access. Is that fair? Is that what 
it is really?
    Ms. TAVENNER. What I would say to those folks is it is 
going to depend on their individual, you know, situation, 
because if they are in a group market where they already had 
group employer-sponsored insurance, that is a different 
situation. If they are in an individual market, what you can 
say to them now is they now have access to health care and they 
now have a competitive market.
    Mr. GRIFFIN. So if you are paying----
    Chairman CAMP. All right. Time has expired.
    Mr. Schock.
    Mr. GRIFFIN. I appreciate you. Thank you.
    Mr. SCHOCK. Thank you. With all this discussion about Web 
sites that don't work, let's talk about a Web site that does. 
On WhiteHouse.gov right now, if you go to WhiteHouse.gov, 
``Health Insurance Reform Reality Check.'' Headline: You can 
keep your health insurance if you like it. Currently on the Web 
site. Linda Douglass of the White House Office of Health Reform 
debunks the myth that reform will force you out of your 
insurance plan if you like it, force you to change doctors, 
period. To the contrary, reform will expand your choices, not 
eliminate them.
    WhiteHouse.gov then cites three sources to substantiate 
their claim. One of them is a blog post by Linda Douglass, one 
of them is a video of a press conference that the President 
gave in July, and one of them is a teletownhall hosted by AARP. 
And if you click on them, interestingly, the first question 
that the President was asked at the teletownhall came from a 
woman named Margaret in Greeley, Colorado, and she says, ``Mr. 
President, I have heard I could lose the health insurance that 
I have currently.'' And the President says to that question, 
and I am quoting: ``Here is a guarantee that I have made: If 
you have insurance that you like, then you will be able to keep 
that insurance, period.'' That is on WhiteHouse.gov Web site 
today. ``Reality Check,'' is their headline, ``on Health 
Insurance Reform.''
    Let me tell you, Ms. Tavenner, the reality check that 
millions of Americans in my district are getting. Michelle York 
from Triple Digit Trucking in Jacksonville, Illinois, just sent 
me this letter today, and it is from Blue Cross Blue Shield. 
``All plans must be compliant with the new health care law. 
Therefore, Blue Cross Blue Shield health insurance plan that 
you currently have now will no longer be available after 
December 31. Your premiums will go from $474 to $865, effective 
January 1, a nearly 100 percent increase.''
    She writes to me, Ms. Tavenner, ``I do not understand how 
my current policy can legally be cancelled since I am already 
doing what I am supposed to do.'' What am I supposed to say to 
Ms. York in Jacksonville, Illinois?
    Ms. TAVENNER. The first thing I would do is I would 
encourage her to go talk to the Web site or go to the call 
center and see what is available in the market.
    Mr. SCHOCK. So wait a minute. She is told by the President, 
the WhiteHouse.gov today says if you have health insurance that 
you like, you will be able to keep it. She has health insurance 
that she likes, she has been paying her premiums, she wants to 
keep it, but she can't. Isn't that a lie?
    Ms. TAVENNER. You know, there has always been the issue 
where issuers had the ability to stop offering a policy or 
change a policy.
    Mr. SCHOCK. No, this is the not the issuers wanting to stop 
to offer a policy. The issuer is saying we are being mandated 
that we can't continue to offer this policy. It is a yes-or-no 
question. The WhiteHouse.gov Web site says if you want to keep 
the health insurance that you have got, you can keep it, and 
now they are being told they can't. That is a lie.
    Ms. TAVENNER. Those issuers were grandfathered in, in 2010, 
and they are choosing to make a different decision now.
    Chairman CAMP. All right.
    Mr. Kind.
    Mr. KIND. Thank you, Mr. Chairman.
    Ms. Tavenner, thank you so much for your patience and your 
indulgence here today. Let me ask you to end on a high note, 
shall we speak. I think all the questions surrounding the ACA 
Web site have been asked and answered and exhausted. I know 
Secretary Sebelius will be here again tomorrow answering a lot 
of the same questions you just had. But really the key to all 
this, what we are trying to do is make sure that all Americans 
have access to quality affordable health care coverage in their 
life, period. There may be different ways of doing it and that, 
but the real key is affordable. What can we do to help bend the 
cost curve within the health care system so it is more 
affordable for all Americans.
    Cost containment. You have been given a lot of tools under 
the Affordable Care Act for cost containment, trying to get 
better value, good quality of care at a much better price. What 
are you seeing out there right now in that regard and whether 
or not it is sustainable in the future?
    Ms. TAVENNER. That is a great question. What we have seen 
in our early work with the Innovation Center, and obviously 
chiefly targeted at the Medicare population, is the more we tie 
quality and outcomes to payment, the better results we are 
getting for the individual and the lower the cost trend. We 
have had probably 3 years of the lowest cost trend in Medicare 
that we have seen in the last 50 years. That doesn't mean that 
we don't have to keep fighting it every day. We also work with 
issuers on the private side so that they align their quality 
programs and their indicators the same as we so that the trend 
is just not a Medicare trend, it is across the entire 
environment.
    Early success encouraging; a lot of work to do.
    Mr. KIND. Yeah. I see recent data just came out about per-
beneficiary costs for Medicare being revised downward yet 
again, and really that is going to be the key to our long-term 
unfunded liabilities that we are facing that are driving these 
budget deficits, these rising health care costs. I think there 
is a lot that is going.
    And, Mr. Chairman, I would respectfully recommend that at 
some future hearing we call Ms. Tavenner back, mainly focused 
on cost containment within the health care system, so we can 
delve into it in greater detail. I yield back.
    Chairman CAMP. I am sure she will be anxious to come back.
    We have two more, Mr. Reed and then Mr. Kelly.
    Mr. Reed.
    Mr. REED. Thank you, Mr. Chairman.
    And thank you, Ms. Tavenner. And we have worked together 
before, and I appreciate that relationship. And you have 
demonstrated to me in that relationship in those prior dealings 
a very high level of competence. And I have been listening to 
your testimony today, and I really want to focus on my 
oversight responsibilities on this committee.
    You had indicated to Mr. Buchanan, Ms. Tavenner, that you 
were not aware prior to October 1 of any problems with the Web 
site. Did I misinterpret your response to Mr. Buchanan's 
question?
    Ms. TAVENNER. No. We had tested the Web site and we were 
comfortable with its performance. Now, like I said, we knew all 
along that there would be, as with any new Web site, some 
individual glitches we would have to work out. But the volume 
issue and the creation of account issues was not anticipated 
and obviously took us by surprise and did not show up in 
testing.
    Mr. REED. So that didn't show up in testing. So when I read 
the New York Times article that talked about confidential 
progress reports from Health and Human Services Department 
showing senior officials repeatedly expressed doubts that the 
computer systems for the Federal exchange would be ready on 
time, blaming delayed regulations, a lack of resources, and 
other factors, is that New York Times report inaccurate?
    Ms. TAVENNER. We were working in a compressed time frame 
for sure, but how we chose to resolve some of that is some of 
the things that we delayed, the programs that we delayed, which 
I have been through, SHOP, Medicare account, transfer, Spanish, 
there were three or four programs that we said, okay, we will 
not be able to adequately test those. We went through testing 
on the remainder of the Web site. We also had independent 
validation. Obviously your initial testing, you find areas, you 
correct them, you improve, but we went through the testing 
process.
    Mr. REED. And I appreciate that. So you made some 
determinations to delay and suspend some of the programs.
    Ms. TAVENNER. Yes.
    Mr. REED. And then you had mentioned that you had done that 
through a group decision-making process. And then there were 
some question as to who was involved in that group decision-
making process, and you were very hesitant to give any names 
involved in that group. Do you know the names of the people 
that were involved in that group?
    Ms. TAVENNER. So the program delay recommendations were 
CMS. We made those recommendations to the Secretary in 
September. And I think I indicated----
    Mr. REED. And then did she unilaterally make that decision 
to delay it or did she inform the White House of any 
indication----
    Ms. TAVENNER. So I informed White House staff, I informed 
the Secretary of our decisions, and they supported it.
    Mr. REED. Perfect. So who on the White House staff did you 
inform?
    Ms. TAVENNER. I would be glad to get you that information.
    Mr. REED. Why can't you give me that information?
    Ms. TAVENNER. I am just saying it was staff within the 
White House. I am happy to get you that information. I just 
want to give you accurate----
    Mr. REED. You don't know the name of the staff member? As 
you sit here today, you don't know the name of the staff member 
you directed that to?
    Ms. TAVENNER. So I was talking to several staff. I am happy 
to get you that list.
    Mr. REED. Why can't you tell me that name here?
    Ms. TAVENNER. Because I would want to give you the entire 
list, I would want to give the date, I would want to give you 
correct information. I think that is appropriate, Mr. Chairman.
    Chairman CAMP. All right.
    Mr. Kelly.
    Mr. KELLY. Thank you, Mr. Chairman.
    Ms. Tavenner, thanks for being here. I know you have a 
great deal of experience in the private sector. You have done 
things. And I know we have had a lot of talk about how it is 
not working, but this failure to launch is really troubling to 
me, and it is all about the process. So my question, who is in 
charge of this? Was it you?
    Ms. TAVENNER. Yes. I am in charge of the program.
    Mr. KELLY. All right. So there is a little saying out 
there, you have got to inspect what you expect. Were there any 
expectations at all? Because we keep hearing that we just 
didn't expect this level, we didn't expect this level of 
volume. It is incredible for me to sit back and understand that 
that is possibly the case.
    I think this was designed for failure from the beginning, 
and I tell you why I think that. It was never achieved to 
achieve success. It just wasn't. And if you are telling me the 
process, the bid process, the people that got the final bid to 
build this site, there is no bid process, right?
    Ms. TAVENNER. There was a bid process, yes.
    Mr. KELLY. All right. So they competed against other people 
to get this bid?
    Ms. TAVENNER. Yes.
    Mr. KELLY. All right. Is there a performance bond included 
in that?
    Ms. TAVENNER. Yes, I am sure there is, but I need to check 
on that.
    Mr. KELLY. Okay. Well, I want to get an answer to that, 
because to my knowledge there was absolutely no performance 
bond.
    Ms. TAVENNER. And I am not the contracting specialist.
    Mr. KELLY. No, no, no, no, no. Well, but you are in charge 
of it. You have got to have oversight. And I am deeply 
disturbed that we are talking about a site that started off 
with an expectation of cost. It has gone way off the charts, 
and there is no concern about that. Right? This is not about 
health care. This is about a Web site that from the very 
beginning, after 3 years and all this investment, we still 
can't get up and onto it. And if I asked you a question, who is 
in charge, and you say you are, I am expecting to get answers 
from you as to who actually was there, how did these people get 
the bid, were they held accountable for their lack of 
performance, and is there a performance bond in there that 
allows the American people to recover some of their money, 
because not one penny came from the government, it came out of 
taxpayers' pockets.
    Ms. TAVENNER. So I am happy to get you that information.
    Mr. KELLY. Well, I got to tell you, and again, this has 
nothing to do with you. These cost overruns are off the chart, 
and the idea that somehow there is an answer in the future is 
unacceptable. We have driven the gap between what the American 
people expect, and what they expect do now expect is so little 
from the government.
    You know, my little town of Butler, Pennsylvania, they had 
a bid for police cars. Do you know part of that bid was a 10 
percent bid bond, performance bond that was included? I can't 
understand how a little town that has a $7.8 or $7.9 million 
budget can ask for those types of guarantees from bidders, 
responsible bidders, and the United States Government cannot.
    And the cost of this, if it is actually true, and I want to 
get to the bottom of it, if it really started off and you 
expected somewhere around $100 million to be spent, and it is 
now up over $600 million and that doesn't include any of the 
other rollout costs, can we actually sit here and talk to the 
American people with any degree of confidence and saying, we 
have got your best interests at heart here. We have also got 
your wallets, and we are going to drain them.
    This is an absolute incredible, incredible lack of 
efficiency and responsibility on behalf of the administration, 
and it doesn't surprise me. This is the way they operate with 
every single thing. And I can't believe that everybody is 
finding this out because of what they read in the newspaper. If 
you read the model, if you had the model, if you had the tests 
going, you couldn't possibly sit here today and say it is going 
exactly the way we expected.
    Chairman CAMP. All right. Thank you. Time has expired.
    As a reminder, any member wishing to submit a question for 
the record will have 14 days to do so. And if any members 
submit questions at this hearing, I would ask that the 
administrator respond in writing in a timely manner.
    Chairman CAMP. Again, I want to thank Administrator 
Tavenner for her testimony today, and appreciate your continued 
assistance as we answer some of the questions that were raised 
at this hearing. And I appreciate your offer of regular updates 
as we move forward.
    With that, this committee is adjourned.
    [Whereupon, at 12:56 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
